<html>
<title> - A REVIEW OF NASA'S SPACE LAUNCH SYSTEM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                 A REVIEW OF NASA'S SPACE LAUNCH SYSTEM 

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JULY 12, 2011

                               __________

                           Serial No. 112-29

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

67-253 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


































              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


























                            C O N T E N T S

                         Tuesday, July 12, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     7
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

                               Witnesses:

The Honorable Charles F. Bolden Jr., Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    13
    Written Statement............................................    16

             Appendix I: Answers to Post-Hearing Questions

The Honorable Charles F. Bolden Jr., Administrator, National 
  Aeronautics and Space Administration...........................    60


                 A REVIEW OF NASA'S SPACE LAUNCH SYSTEM

                              ----------                              


                         TUESDAY, JULY 12, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.


    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                 A Review of NASA's Space Launch System

                         tuesday, july 12, 2011
                        10:00 a.m. to 12:00 p.m.
                   2318 rayburn house office building

Hearing Purpose

    The original intent of the hearing was to examine NASA's selection 
of a heavy-lift launch system (``Space Launch System'') that will be 
used to launch future crew and cargo flights beyond low Earth orbit. 
Members would have had an opportunity to ask questions regarding cost, 
schedule, capabilities, and justification for the selected design. 
However, on July 7, a senior NASA official publicly stated that a final 
decision on SLS won't be announced until ``late this summer.'' In light 
of NASA's continuing delays (the NASA Authorization Act of 2010 
required a decision and report by mid-January 2011), the hearing will 
instead provide an opportunity for NASA to explain why it has failed to 
reach a decision, what analyses still need to be completed, and when 
the Space Launch System decisions will be forthcoming.

Witness


    <bullet>  The Honorable Charles F. Bolden Jr., Administrator, 
National Aeronautics and Space Administration

Background

      The Bush Administration and the NASA Authorization Acts of 
                             2005 and 2008
    In the aftermath of the Space Shuttle Columbia accident the Bush 
Administration proposed a new vision for space exploration, following 
the retirement of the Space Shuttle, which would extend human 
capabilities beyond low Earth orbit for the first time since 1972. In 
the NASA Authorization Act of 2005 Congress directed NASA to 
``establish a program to develop a sustained human presence on the 
Moon, including a robust precursor program, to promote exploration, 
science, commerce, and United States preeminence in space, and as a 
stepping-stone to future exploration of Mars and other destinations.'' 
[P.L. 109-155]

    Subsequently, NASA created the Constellation program (consisting of 
the Ares 1 rocket and Orion crew capsule, the Ares 5 heavy lift 
launcher, and the Altair lunar lander) that was designed to accommodate 
this stepping-stone approach, and was Congressionally-authorized by the 
NASA Authorization Act of 2008 ``to ensure that activities in its lunar 
exploration program shall be designed and implemented in a manner that 
gives strong consideration to how those activities might also help meet 
the requirements of future activities beyond the Moon'' and a range of 
future destinations ``to expand human and robotic presence into the 
solar system, including the exploration and utilization of the Moon, 
near Earth asteroids, Lagrangian points, and eventually Mars and its 
moons.'' [P.L. 110-422]

                        The Obama Administration
    In NASA's FY 2010 budget proposal the Obama Administration 
maintained the Congressionally-authorized policy of returning Americans 
to the Moon and noted that, ``Funds freed from the Shuttle's retirement 
will enable the Agency to support development of systems to deliver 
people and cargo to the International Space Station and the Moon,'' 
and, ``The Agency will create a new chapter of this legacy as it works 
to return Americans to the Moon by 2020 as part of a robust human and 
robotic space exploration program.'' Yet in spite of these assertions 
the Administration eliminated funding for continued development of the 
Altair lunar lander and the Ares 5 heavy-lift launch vehicle, and cut 
more than $3 billion from NASA's five year Exploration Systems budget, 
relative to the FY 2009 budget request.

    At the time of the FY 2010 budget proposal the Administration 
established an independent review committee chaired by retired Lockheed 
Martin executive Norman Augustine. The Review of Human Spaceflight 
Plans Committee delivered its final report in October 2009 with the 
overarching conclusion that `` Meaningful exploration beyond low-Earth 
orbit is not viable under the FY 2010 budget guideline'' but that 
``Meaningful human exploration is possible under a less-constrained 
budget, increasing annual expenditures by approximately $3 billion in 
real purchasing power above the FY 2010 guidance.''

    Despite the Augustine Committee's finding that the FY 2010 budget 
profile was insufficient for meaningful human space exploration, the 
next year the administration reduced the FY 2011 Exploration Systems 
budget to $4.3 billion, which was $1.8 billion below the FY 2010 runout 
plan. Hence, it appeared that `` Funds freed from the Shuttle's 
retirement.'' would not be provided by the Administration to ``enable 
the Agency to support development of systems to deliver people and 
cargo to the International Space Station and the Moon.''

    In NASA's FY 2011 budget request the Administration proposed 
canceling the Constellation program, claiming it was `` trying to 
recreate the glories of the past with the technologies of the past.'' 
Then at a speech at the Kennedy Space Center on April 15th 2010, the 
President said that with respect to the Moon, `` the simple fact is, we 
have been there before. There is a lot more of space to explore . . . 
'' He announced that the U.S. would send humans to an asteroid by 2025, 
followed by a human mission to orbit Mars by the mid 2030s.

    On July 6, 2011 during a Twitterr Town Hall webcast, President 
Obama expressed his vision for exploration this way, ``. . . let's 
ultimately get to Mars. A good pit stop is an asteroid. I haven't 
actually--we haven't identified the actual asteroid yet, in case people 
are wondering. But the point is, let's start stretching the boundaries 
so we're not doing the same thing over and over again. But rather, 
let's start thinking about what's the next horizon. What's the next 
frontier out there and you know, but in order to do that we're going to 
need some technological breakthroughs that we don't have yet.''

    In lieu of Constellation, the Administration's FY 2011 budget 
sought to fund development of ``commercial crew'' transportation 
services (three or four, according to NASA), and postpone construction 
of human exploration systems for a least five years, instead pursuing 
additional propulsion research and technology development. Despite 
repeated requests by both the House Committee on Science, Space, and 
Technology, and the Senate Committee on Commerce, Science, and 
Transportation throughout 2010, NASA failed to provide a credible plan 
justifying their proposal. As a result, after extensive review and 
debate, Congress in its 2010 NASA Authorization Act reversed the 
Administration's approach and directed the agency to build upon the 
capabilities of the Shuttle and Constellation programs and immediately 
begin developing the SLS and MPCV.

            The NASA Authorization Act of 2010 [P.L.111-267]
    Last year Congress passed the NASA Authorization Act of 2010, which 
was signed by the President on October 11, 2010 [P.L.111-267]. The Act 
provided policy guidance and recommended funding levels for three 
years, and called for a National Academy ``review of the goals, core 
capabilities, and direction of human space flight, using the goals set 
forth in the National Aeronautics and Space Act of 1958, the NASA 
Authorization Act of 2005, and the NASA Authorization Act of 2008, the 
goals set forth in this Act, and goals set forth in any existing 
statement of space policy issued by the President.'' The review is to 
be completed by next year.

    Congress again reaffirmed the policy of the NASA Authorization Act 
of 2005 (42 U.S.C. 16761(a)), ``that the United States shall maintain 
an uninterrupted capability for human space flight and operations in 
low-Earth orbit, and beyond, as an essential instrument of national 
security and of the capacity to ensure continued United States 
participation and leadership in the exploration and utilization of 
space.'' [Sec. 201(b)]

    Section 202 (a) stated that, ``The long term goal of the human 
space flight and exploration efforts of NASA shall be to expand 
permanent human presence beyond low-Earth orbit and to do so, where 
practical, in a manner involving international partners.'' Section 
301(a)(1) stated, ``The extension of the human presence from low-Earth 
orbit to other regions of space beyond low-Earth orbit will enable 
missions to the surface of the Moon and missions to deep space 
destinations such as near-Earth asteroids and Mars.''

    Section 2(9) of the NASA Authorization Act of 2010 states, ``While 
commercial transportation systems have the promise to contribute 
valuable services, it is in the United States' national interest to 
maintain a government operated space transportation system for crew and 
cargo delivery to space.''

    As a result, the Act provided $10.8 billion (through FY 2013) to 
continue developing a Shuttle- and Constellation-derived launch system 
(newly designated the Space Launch System and Multi-Purpose Crew 
Vehicle) that would also assure a national capability to access the 
International Space Station for the U.S. and our international partners 
in case commercial proposals fail to materialize or Russian Soyuz 
vehicles are unavailable. The Act also directed NASA to proceed 
immediately with its development with the goal of making the system 
operational by 2016.

    Congress envisioned that the Space Launch System (SLS) and Multi 
Purpose Crew Vehicle (MPCV) would get maximum benefit from the more 
than $10.3 billion that had been spent (up to that time) on the 
Constellation program. Constellation had achieved a number of 
developmental milestones including the successful flight tests of the 
Ares 1-X and the Orion launch abort systems, and a ground demonstration 
of the new five-segment solid rocket motor that was to power the Ares 1 
and Ares 5 launchers. The SLS and MPCV were to continue to focus on 
developing the advanced human safety features of the Orion project, and 
be capable of evolving into a heavy lift launch system that could 
eventually carry 130 tons to orbit to enable human exploration beyond 
Earth orbit.

    NASA was directed to provide a report to Congress by January 9, 
2011, describing the SLS and MPCV including ``. . . the assumptions, 
description, data, and analysis of the systems trades and resolution 
process, justification of trade decisions, the design factors which 
implement the essential system and vehicle capability requirements.the 
explanation and justification of any deviations from those 
requirements, the plan for utilization of existing contracts, civil 
service and contract workforce, supporting infrastructure utilization 
and modifications, and procurement strategy to expedite development 
activities through modification of existing contract vehicles, and the 
schedule of design and development milestones and related schedules 
leading to the accomplishment of operational goals established by this 
Act.'' [Section 309]

    In November 2010, NASA issued a series of small ($650,000) study 
contracts to 13 companies to provide industry inputs to the heavy lift 
studies. Initial responses were obtained in late February 2011 and 
final replies in late April 2011.

    In January 2011, Administrator Bolden sent a letter to the 
Committee that said, ``Unfortunately, a 2016 first flight does not 
appear to be possible within projected FY 2011 and out year funding 
levels, although NASA is continuing to explore innovative procurement 
and development approaches to determine whether it can come closer to 
this goal.''

    According to briefings by senior NASA officials in May 2011, the 
report is expected to include, 1) the basic framework for a 
``capability driven architecture'' and concept of operations that 
provides the ``strategic context for exploration of multiple 
destinations,'' 2) an analysis of the cost and benefits of proposed 
vehicle designs for the SLS and MPCV and alternatives, 3) analysis of 
the current Ares, Shuttle and Orion contracts for the applicability to 
the future development program, and 4) analysis of potential 
acquisitions approaches.

    NASA has contracted with Booz Allen Hamilton to perform an 
independent cost assessment. The results were due in May 2011 for 
inclusion as part of the final report. In May 2011 senior NASA 
officials expressed confidence that the final report would be completed 
by June 20th, this was later changed to July 8th. NASA's report to 
Congress is now more than six months late. NASA is awaiting final 
approval from OMB.

    Continuing delays have already resulted in the loss of thousands of 
highly skilled aerospace jobs, and threatens to do costly damage to the 
U.S. industrial base. On March 30, 2011 in testimony before the Space 
and Aeronautics Subcommittee hearing on A Review of NASA's Exploration 
Program in Transition, the Chairman of the Corporate Membership 
Committee of the American Institute of Aeronautics and Astronautics 
testified that, ``. . . the space industrial base is not FACING a 
crisis; we are IN a crisis. And we are losing a National Perishable 
Asset.our unique workforce.''

                 FY2011 Full Year Continuing Resolution
    On April 15, 2011 a full year continuing resolution established 
spending levels for the balance of FY 2011. As noted in the table 
below, for the Space Launch System, amounts provided are slightly above 
authorized levels. Subsequently, on June 15th NASA provided Congress 
with an operating plan based on the continuing resolution (FY11 CR 
column below) and gave notice that ``(A)dditional information on NASA's 
progress in selecting an architecture and acquisition strategy will be 
provided to Congress in the Updated Report on MPCV and SLS in summer 
2011.'' Agency officials are now suggesting that the information won't 
be available until late summer at the earliest.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                 Recent FY 2012 Appropriation Activity
    On July 7th the House Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies reported an FY 2012 
appropriations bill providing a total of $3.65 billion for Exploration 
Systems, that included the following provision: `` Provided, that not 
less than $1,063,000,000 shall be for the multipurpose crew vehicle to 
continue existing vehicle development activities to meet the 
requirements described in paragraph (a)(1) of section 303 of Public Law 
111-267, and not less than $1,985,000,000 shall be for the heavy lift 
launch vehicle system which shall have a lift capability not less than 
130 tons and which shall have an upper stage and other core elements 
developed simultaneously.''
    Chairman Hall. Charlie, are you ready? Everybody ready down 
the road here? Committee on Science, Space, and Technology will 
come to order. Good morning. Welcome to today's hearing 
entitled, ``A Review of NASA's Space Launch System.'' In front 
of you, of course, are the same packets contained in the 
written testimony, biography, and truth in testimony disclosure 
for today's witness, Administrator Charles F. Bolden.
    And we will have opening statements. I recognize myself for 
five minutes for my opening statement.
    Good morning, and today's hearing is entitled, ``A Review 
of NASA's Space Launch System,'' and our witness is NASA 
Administrator Charlie Bolden.
    As a preface to the formal portion of my statement, I want 
to first congratulate all the men and women at NASA and its 
contractors for the successful launch of STS-135. The Shuttle 
launch was viewed by tens of thousands of people on hand in 
Florida and millions more around the world, including a packed 
crowd in this hearing room, and it was a bittersweet moment to 
watch the last flight of the Shuttle Atlantis lift off from 
Kennedy Space Center.
    General, your team did an outstanding job, and we all look 
forward to welcoming this crew safely home probably some time 
next week.
    Several weeks ago as our Committee began planning for this 
hearing, we had every expectation that NASA would have 
announced its Space Launch System architecture well before 
today, with the goal that the Committee Members would have the 
opportunity to ask questions regarding cost, schedule, 
capabilities, and the like. Indications we had received from 
NASA throughout the spring clearly suggested that a decision 
would have been rendered prior to today. Sadly, such is not the 
case.
    Nine months ago the President signed the NASA Authorization 
Act. Provisions in the bill clearly directed, clearly directed 
NASA to provide us with decisions to tell Congress of their 
decisions on the selection of the crew vehicle and the launch 
system design by January 9, 2011. That date was considered 
attainable given the previous investment and substantial 
progress made by NASA in vehicle engineering, design, and 
demonstrations that had already been achieved by the 
Constellation Program.
    The Act also included the goal of reaching operational 
capability for the core elements not later than December 31, 
2016, because that date seemed realistic for the now-canceled 
Constellation System, and it also reflected Congress' deep 
concern that we needed to have a back-up capability in place 
should commercial launch vehicles fail to materialize.
    Instead, on January 15, Congress received a ``preliminary 
report,'' that emphasized its selection of prototype vehicle 
designs but did not commit the agency to their construction. 
The report was careful to note, and I quote, ``NASA hopes to 
finalize its acquisition decisions as early as spring of 2011, 
details that will be included in a follow-on report to 
Congress.'' We are well into summer, and no such report has 
been sent.
    So today, 6 months later, and with the final space shuttle 
mission now underway, instead of an informed discussion on the 
attributes and trades on the selection of a Space Launch 
System, we will be left with little more than an explanation of 
decision-making processes still to be completed.
    Our letter of invitation asked you, Charlie, to describe 
the design of the launch system, how much it would cost, the 
budget profile, its performance, when it would be ready, and 
the types of missions it would enable. General Bolden, the fact 
that we do not have a final decision on the SLS and the 
supporting documents that the invitation letter requested 
represents almost an insult to this Committee and to Congress.
    We will try our very best throughout this hearing to 
accommodate the agency's failure and the failure of the White 
House to answer congressional requests and to give us the 
information that we are entitled to have. But to be clear, this 
failure reflects poorly on the Administration and its space 
program. I can't help but feel that this Administration has let 
down the thousands of men and women who have devoted their 
careers to the space program as well as heroes such as Neil 
Armstrong, Mike Collins, Buzz Aldrin, Gene Cernan, Tom 
Stafford, and they go on and on and many, many others, known 
well to all of us, who risked their lives blazing the trail of 
space exploration and some who lost their lives and others who 
continue to maintain an unwavering dedication and devotion to 
the cause.
    We have a record littered with requests by Congress for 
information over the last two years. We have waited for answers 
that have not come. We have pleaded for answers that have not 
come. We have done our best to be fair with you and with this 
President, who set out to delay the next step in our Nation's 
human space exploration program and by doing so has jeopardized 
the Space Station in the process.
    It is a shame that for many of us that simply want to 
preserve, protect, and defend our leadership in space, that is 
all we ask for, that is what we want, that we see NASA paying 
for rides to the Space Station from countries that may not have 
our best interests at heart.
    We have run out of patience. I realize and I believe that 
you are the person who has to bear the brunt of this 
President's bad decisions. I would like to believe you have 
told him what he ought to do, and I would like to believe that 
he didn't pay any attention to you. The White House has done 
you wrong. But nonetheless, you have to answer for these 
continued failures. I would like to point out today that this 
Committee reserves the right to open an investigation into 
these continued delays and join the investigation initiated by 
the Senate. It is a shame we have to even consider or be 
thinking about doing that.
    Moving forward I think that it is important to note that we 
support all of the people engaged in developing the next heavy-
lift vehicle as well as those who are working on the commercial 
cargo and crew contracts; people who are working every day to 
keep America at the forefront of human spaceflight. It is these 
engineers, these technicians and scientists who, despite the 
absence of good leadership from the White House, strive to 
dream big and carry on the legacy of those that came before us, 
before them and before us.
    [The prepared statement of Mr. Hall follows:]
               Prepared Statement of Chairman Ralph Hall
    Good morning. Today's hearing is entitled ``A Review of NASA's 
Space Launch System'', and our witness is NASA Administrator Charlie 
Bolden.
    As a preface to the formal portion of my statement, I want to first 
congratulate all the men and women at NASA and its contractors for the 
successful launch of STS-135. The Shuttle launch was viewed by tens of 
thousands on hand in Florida and millions more around the world, 
including a packed crowd in this hearing room, and it was a bittersweet 
moment to watch the last flight of the Shuttle Atlantis lift off from 
Kennedy Space Center.
    General, your team did an outstanding job, and we all look forward 
to welcoming the crew safely home next week.
    Several weeks ago as our Committee began planning for this hearing, 
we had every expectation that NASA would have announced its Space 
Launch System architecture well before today, with the goal that 
Committee Members would have the opportunity to ask questions regarding 
cost, schedule, capabilities, and the like. Indications we had received 
from NASA throughout the spring clearly suggested that a decision would 
have been rendered prior to today. Sadly, such is not the case.
    Nine months ago the President signed the NASA Authorization Act. 
Provisions in the bill clearly directed NASA to provide Congress with 
decisions on the selection of the crew vehicle and launch system 
designs by January 9, 2011. That date was considered attainable given 
the previous investment and substantial progress made by NASA in 
vehicle engineering, design, and demonstrations that had already been 
achieved by the Constellation program.
    The Act also included the goal of reaching operational capability 
for the core elements not later than December 31, 2016 because that 
date seemed realistic for the now-canceled Constellation system, and it 
also reflects Congress' deep concern that we needed to have a back-up 
capability in place should commercial launch vehicles fail to 
materialize.
    Instead, on January 15, Congress received a ``Preliminary Report'' 
that emphasized its selection of prototype vehicle designs, but did not 
commit the agency to their construction. The report was careful to 
note, and I quote: ``NASA hopes to finalize its acquisition decisions 
as early as Spring of 2011--details that will be included in a follow-
on report to Congress.'' We are well into summer and no such report has 
been sent.
    So today, six months later, and with the final space shuttle 
mission now underway, instead of an informed discussion on the 
attributes and trades on the selection of a Space Launch System, we'll 
be left with little more than an explanation of decision-making 
processes still to be completed. Our letter of invitation asked you to 
describe the design of the launch system, how much it would cost, the 
budget profile, its performance, when it would be ready, and the types 
of missions it would enable. General Bolden, the fact that we do not 
have a final decision on the SLS and the supporting documents that the 
invitation letter requested represents an insult to Congress.
    We will try our best throughout this hearing to accommodate the 
agency's failure and the failure of this White House to answer Congress 
and give us the information that we are entitled to have. But to be 
clear, this failure reflects poorly on the Administration and its space 
program. I can't help but feel that this Administration has let down 
the thousands of men and women who have devoted their careers to the 
space program as well as heroes such as Neil Armstrong, Mike Collins, 
Buzz Aldrin, Gene Cernan, Tom Stafford, and many, many others who 
risked their lives blazing the trail of space exploration. Some who 
lost their lives, and others who continue to maintain an unwavering 
dedication and devotion to the cause.
    We have a record littered with requests by Congress for information 
over the last two years. We have waited for answers that have not come. 
We have pleaded for answers that have not come. We have done our best 
to be fair with you and this President, who set out to delay the next 
step in our nation's human space exploration program and by doing so 
has jeopardized the Space Station in the process.
    It is a shame that for many of us that simply want to preserve, 
protect, and defend our leadership in space that we see NASA paying for 
rides to the Space Station from countries that may not have America's 
best interests at heart.
    We have run out of patience. I realize that you are the person who 
has to bear the brunt of this President's bad decisions. This White 
House has done you wrong. But nonetheless, you must answer for these 
continued failures. I would like to point out today that this Committee 
reserves the right to open an investigation into these continued delays 
and join the investigation initiated by the Senate. It's a shame we 
have to consider doing that.
    Moving forward I think that it is important to note that we support 
all of the people engaged in developing the next heavy-lift vehicle as 
well as those working on the commercial cargo and crew contracts; 
people who are working every day to keep America at the forefront of 
human spaceflight. It is these engineers, technicians and scientists 
who, despite the absence of good leadership from this White House, 
strive to dream big and carry on the legacy of those that came before 
them.
    I now recognize the Gentle-lady from Texas for her opening 
statement.

    Chairman Hall. I now recognize the gentlelady from Texas 
for her opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. Good 
morning, and let me welcome you, Administrator Bolden. I want 
to congratulate you and the entire Shuttle team on the truly 
spectacular launch of the Space Shuttle Atlantis. I watched 
video right here in this room last Friday, and I can assure you 
that the room was packed with enthusiastic supporters of all 
ages, and I know I speak for all of my colleagues when I say 
that we wish the crew of Atlantis a safe and successful 
mission.
    As you know, you have been called to testify on NASA's 
plans to develop the vehicles that will enable future human 
exploration beyond low-Earth orbit, vehicles that have been 
authorized and funded by Congress. However, as you also know, 
and will testify today, that you still don't have an approved 
plan to share with us.
    As a result, I expect that you will be on the receiving end 
of a lot of unhappiness and irritation expressed by many 
Members here today, and that includes me. It is unfortunate 
because the fault doesn't lie with you. It is my understanding 
that you have had a plan ready to announce for some time, but 
you haven't been able to get the final okay to make it public. 
And that said, it is now past time for a decision and a plan to 
be announced.
    Three successful NASA Authorization Acts enacted by 
Democratic and Republican Congresses and Presidents alike over 
the past six years have directed NASA to undertake a program of 
human exploration beyond low-Earth orbit, and the most recent 
of those Authorization Acts directed NASA to move expeditiously 
to develop the heavy-lift launch vehicle and crew capsule 
needed to enable those exploration missions, as well as to 
provide back-up capability in support of the International 
Space Station.
    In short, Congress is not asking NASA to build a rocket 
without a mission as some have claimed. Instead, we are asking 
NASA to build the system this Nation will need to carry out the 
exploration program authorized by successive Congresses and 
Presidents.
    As I mentioned at the beginning of my remarks, the Shuttle 
Program is drawing to a close. There are many talented men and 
women who have worked on that program and on the now cancelled 
Constellation Program who want to continue to contribute to our 
Nation's leadership in space exploration, but they don't know 
what, if anything, is going to be there for them to work on in 
the coming years. There are impressionable young people, 
students, some of whom were here last week, looking with so 
much inspiration and hope in their eyes, but now we don't know 
whether there is even going to be a human spaceflight program 
when they get out of school. I even talked with some about 
their wishes of becoming an astronaut, and there are 
international partners who wonder why the United States appears 
to be adrift and ready to walk away from this global leadership 
in human spaceflight.
    I suspect that this state of affairs pains you as much as 
it does me, but I have been around long enough to believe that 
we can do better, and I think that you believe that we can do 
better as well. So I hope that when this hearing is over, you 
will strongly convey to those in the Administration who are 
dithering that this is time to move forward and let NASA get on 
with the task that the Nation has asked to be undertaken.
    I have been asked by many news outlets about the future, 
and sitting on this Committee they certainly expect me to know 
the answer, but I do not. At this critical juncture we need to 
move ahead expeditiously to build a Space Launch System and 
Multi-Purpose Crew Vehicle in a way that makes use of the human 
spaceflight skills and knowledge base that NASA has worked so 
hard to achieve over the years and to inspire the next 
generation of explorers, engineers, and scientists.
    I firmly believe that if we lose this talent, it won't be 
just to another State or another agency. It will be to another 
country, and to those of my colleagues on the Majority side who 
are critical of the Administration's stewardship of NASA, I 
also hope that you will convey to your colleagues in Congress 
that NASA cannot do what we have asked it to do if its budget 
keeps getting cut. The proposed appropriations level for NASA 
is one that if enacted will simply add more stress to an agency 
and dedicated workforce that is already trying to do more with 
less. At the end of the day, this will put America on a path to 
relinquish its space leadership. I would hate for that to 
happen, and I don't believe that you want it to happen as well.
    But we all need to recognize that votes on funding have 
consequences. Chairman Hall, I am so glad that you are 
supportive of this program, and I appreciate you calling this 
hearing today. Thank you, and I yield back the balance of my 
time.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Ranking Member Eddie Bernice Johnson
    Good morning, and welcome Administrator Bolden. I first want to 
congratulate you and the entire Shuttle team on the truly spectacular 
launch of the Space Shuttle Atlantis. I watched a video feed of that 
launch in this same hearing room last Friday, and I can assure you that 
the room was packed with enthusiastic viewers of all ages. I know I 
speak for all my colleagues when I say that we wish the crew of 
Atlantis a safe and successful mission.
    Administrator Bolden, as you know, you have been called to testify 
on NASA's plans to develop the vehicles that will enable future human 
exploration beyond low-Earth orbit-vehicles that have been authorized 
and funded by Congress. However, as you also know-and will testify 
today-you still don't have an approved plan to share with us. As a 
result, I expect that you will be on the receiving end of a lot of 
unhappiness and irritation expressed by many Members here today. That's 
unfortunate, because the fault doesn't lie with you. It's my 
understanding that you have had a plan ready to announce for some time, 
but you haven't been able to get the final okay to make it public.
    That said, it is now past time for a decision and a plan to be 
announced. Three successive NASA Authorization Acts-enacted by 
Democratic and Republican Congresses and Presidents alike over the past 
six years-have directed NASA to undertake a program of human 
exploration beyond low Earth orbit. And the most recent of those 
Authorization Acts directed NASA to move expeditiously to develop the 
heavy-lift launch vehicle and crew capsule needed to enable those 
exploration missions-as well as to provide backup capability in support 
of the International Space Station. In short, Congress is not asking 
NASA to build a rocket without a mission, as some have claimed. 
Instead, we are asking NASA to build the systems this nation will need 
to carry out the exploration program authorized by successive 
Congresses and Presidents.
    As I mentioned at the beginning of my remarks, the Shuttle program 
is drawing to a close. There are many talented men and women who have 
worked on that program and on the now-cancelled Constellation program 
who want to continue to contribute to our nation's leadership in space 
exploration-but they don't know what, if anything, is going to be there 
for them to work on in the coming years. There are impressionable young 
students-some of whom were in this hearing room last week to see the 
Shuttle lift off-who were inspired by the space program to study math 
and science, but who now don't know whether there is even going to be a 
human space flight program when they get out of school. And there are 
our international partners, who wonder why the United States appears to 
be adrift and ready to walk away from its global leadership in human 
space flight. Administrator Bolden, I suspect this state of affairs 
pains you as much as it pains me.
    But I've been around long enough to believe that we can do better, 
and I think you believe that too. So I hope that when this hearing is 
over, you will strongly convey to those in the Administration who are 
dithering that it is time to move forward and let NASA get on with the 
tasks that the nation has asked it to undertake. At this critical 
juncture, we need to move ahead expeditiously to build the Space Launch 
System and Multi-Purpose Crew Vehicle in a way that makes use of the 
human spaceflight skills and knowledge-base NASA has worked so hard to 
achieve and that inspires the next generation of explorers, engineers, 
and scientists.
    And to those of my colleagues on the Majority side who are critical 
of the Administration's stewardship of NASA, I also hope that you will 
convey to your colleagues in Congress that NASA cannot do what we are 
asking it to do if its budget keeps getting cut. The proposed House CJS 
appropriation level for NASA is one that, if enacted, will simply add 
more stress to an agency and dedicated workforce that is already trying 
to do ``more with less'', and at the end of the day will put America on 
a path to relinquish its space leadership. I would hate for that to 
happen, and I don't believe you would want it to happen either, but we 
all need to recognize that votes on funding have consequences.
    Chairman Hall, I am glad that we are holding today's hearing, and I 
look forward to Administrator Bolden's testimony. Thank you, and I 
yield back the balance of my time.

    Chairman Hall. And I thank you for your good opening 
remarks, and I agree with you on the budget cuts.
    Now, I am going to take advantage of being the Chairman to 
make a statement. Some time many years ago when I was a 
Democrat, and I was a ranking Democrat, and I think Mr. 
Sensenbrenner might have been the Chairman then, the Republican 
Chairman, Al Gore, who was Vice-President, told us we had to 
cut the budget 25 percent. He told everyone that, and I talked 
to Al, and I said, I doubt seriously that the Chairman nor do I 
know how to cut the budget on people whose lives are in danger. 
Who could we get to help us?
    And I think he suggested Administrator Goldin, I believe 
was the Administrator at that time, and we talked to him and 
told him we had to have a 25 percent cut. This is just my 
recollection. I can be wrong, because I am 88 years old, and I 
wake up every morning in kind of a new world sometimes, but I 
remember this conversation very well when we asked Mr. Goldin, 
and he said, yes, he would cut it.
    Mr. Goldin did cut it, but he didn't cut it 25 percent. He 
cut it 34 percent. Really and truly. NASA hasn't been the same 
since that time. So you can have too dang many cuts, and I am 
like that senator that said don't tax me, tax that man behind 
the tree. They cut the wrong budget, and we are suffering from 
it today. We got to work together and try to work a way out of 
it.
    I thank you, Ms. Johnson, for your statement.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    And at this time----
    Ms. Johnson. Mr. Chairman.
    Chairman Hall. Yes.
    Ms. Johnson. Before we proceed.
    Chairman Hall. Go ahead. Sure.
    Ms. Johnson. I would like to ask unanimous consent that 
Representative Sheila Jackson Lee be allowed to sit on the dais 
today and participate in questions. She hasn't arrived yet, but 
she made this request after our Committee Members finished 
their questions.
    Chairman Hall. When she gets here, we will let her sit 
down.
    Ms. Johnson. Thank you.
    Chairman Hall. And let her ask questions.
    Ms. Johnson. Thank you.
    Chairman Hall. After our Members. Okay.
    At this time I would like to introduce our witness, Charles 
F. Bolden, Jr., a friend of mine for a lot of years, a man I 
have admired and respected. Was appointed NASA administrator by 
President Obama and sworn in on July 17, 2009. He is an 
astronaut having flown on four Shuttle missions, including the 
mission that deployed the Hubble Space Telescope. Prior to 
being appointed administrator, Mr. Bolden served in the United 
States Marine Corps for 34 years. During his service he was an 
aviator, having flown 100 missions in South East Asia during 
the Vietnam War.
    And he was a test pilot. He held a number of commands. Mr. 
Bolden retired from the Corps with the rank of major general. 
He is a true patriot. We are glad to have him before us here 
today, and we welcome you, Charlie.

 STATEMENT OF CHARLES F. BOLDEN, JR., ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Bolden. Mr. Chairman, thank you very much and Members 
of the Committee. I thank you all for the opportunity to appear 
here today to discuss the future of NASA's human spaceflight 
program, a future that I believe is very bright.
    And before I continue with my formal comments, I do have to 
say you have the correct person here to cast blame. I want to 
make that very clear. I really appreciate everybody's 
continuing willingness to excuse me for our shortcomings, but 
it is really important for everybody on this Committee and 
everybody watching this hearing to understand that I am the 
leader of America's space program. I am the leader of the 
greatest space program in the world today, and so I am here in 
that capacity to testify and to try to be as honest and open as 
I can with you and answer as many questions as I can. I 
understand everybody's frustration, but you have the right guy 
here to criticize. It is not the President. It is me.
    Our new system will stand on the shoulders of the 
successful Shuttle Program to which thousands of American men 
and women have contributed their passion and expertise to 
ensure America's preeminence in space exploration. I appear 
before you today 4 days after an historic milestone in 
America's spaceflight program; the launch of Atlantis on the 
STS-135 mission, the final flight of the Shuttle Program.
    The brave men and woman of STS-135 safely docked with the 
International Space Station on Sunday, joining the list of 
dozens of American astronauts who have been living and working 
in space continuously for the past decade aboard the orbiting 
outpost. The station is the pinnacle of our current 
achievement, a stepping stone to the rest of our solar system.
    Some say that this final Shuttle mission will mark the end 
of America's 50 years of dominance in human spaceflight. As a 
former astronaut and the current NASA administrator, I am here 
to tell you that American leadership in space will continue for 
at least the next half century because we have laid the 
foundation for success, and as we say at NASA, failure is not 
an option.
    The NASA Authorization Act of 2010 gave NASA a clear 
direction and in line with our 2011 Appropriations Bill, we are 
moving aggressively and enthusiastically to plan future 
exploration. We appreciate the significant bipartisan effort 
behind the law and look forward to working with you to shape a 
promising future for human spaceflight.
    Our post-Shuttle human spaceflight plan also focuses on 
utilization and operation of the ISS, establishing a U.S. 
commercial cargo and crew capability to reach this national 
laboratory and making critical, prioritized investments in the 
technologies that will help us win the future.
    We have to get out of the business of owning and operating 
low-Earth orbit transportation systems and hand that off to the 
private sector, exercising sufficient insight and oversight to 
ensure safety of our astronauts.
    As you all know, our next generation human spaceflight, the 
Space Launch System, or SLS, and the Multi-Purpose Crew Vehicle 
or MPCV, will transport astronauts to multiple destinations 
beyond low-Earth orbit.
    Our first goal is to target an asteroid by 2025. Our 
destinations could include cis-lunar space such as the Earth-
Moon Lagrange points, the lunar surface, and eventually Mars 
and its moons.
    I understand the interest of many Members of Congress, 
including Members of this Committee, in seeing that we move 
quickly. I share that interest and urgency as do the thousands 
of NASA employees and contractors who stand ready to build a 
new system, but we cannot rush a critical decision that will 
drive NASA's activities for several decades. We must be 
respectful stewards of taxpayer dollars.
    As I have said time and time again, our new systems must be 
affordable, sustainable, and realistic. One of the most 
important lessons we learned from Constellation is that a Space 
Launch System will only be successful if multiple Congresses 
and multiple Administrations provide adequate funding.
    In late May after careful analysis and deliberations by my 
senior management team, I accepted the Orion-based reference 
vehicle design first outlined in NASA's January, 2011 report to 
Congress as the agency's MPCV. Orion was already being built to 
meet the requirements of a deep-space vehicle, and our contract 
with Lockheed Martin Corporation maps well to our capsule 
requirements.
    We have also been working expeditiously to complete 
assessments of SLS design options and develop a final 
integrated proposal for it and the MPCV Orion. Of course, we 
were constrained in this work to some degree by the 2010 
Appropriations Law, which required us to continue funding 
Constellation Era contracts.
    We are making progress towards selecting a technical design 
approach that will be evolvable over time to meet our goals and 
be consistent with the law. In parallel to technical decisions 
we are developing new ways of doing business to keep costs down 
and insure agility, efficiency, and sustainability. We are 
revising the management of our requirements, contracts, and 
projects and incorporating approaches to ensure affordability 
in the near term and over the long run.
    To accomplish all this is required--all that is required to 
mount MPCV and SLS, NASA put together a series of teams to 
evaluate and compare various options and evaluate the risks, 
uncertainty and relative advantages and disadvantages of 
alternatives for this integrated system.
    We have also sought input from industry and are considering 
an early flight program for SLS to make the most of what we 
know early on. We know that SLS must be capable of accessing 
many regions of space beyond LEO and be capable of lifting the 
MPCV. It also must be able to initially lift 70 to 100 metric 
tons to LEO while ultimately being evolvable to a lifting 
capacity of 130 metric tons or more.
    The SLS must also have commonality of systems between core 
and upper stage and modularity of elements. The system should 
also be flexible and strengthen our industrial base. On June 20 
I approved a specific design that our experts believe is the 
best technical path forward for SLS. That was an important step 
but not a final decision. Our experts, as well as an 
independent team from Booz Allen Hamilton, are now developing 
cost estimates. We need a credible path to preliminary design 
review or PDR on our best, most flexible approach based on 
budget assumptions and our best estimates on what its cost, 
what this cost and how it fits with projected budgets.
    It would be irresponsible to proceed further until we at 
least have good estimates. I have shared that design with the 
Office of Management and Budget and others at the White House. 
Like me, they are eager to see the results of our cost 
estimates. We know that this program will likely cost tens of 
billions of dollars over many years, so this will likely be the 
most important decision I make as the NASA administrator, and I 
want to get it right.
    We must first pin down the cost of specific technical 
design that I have proposed. Just as importantly we must then 
see how these costs fit into the larger NASA budget so that we 
can continue to do exceptional work in robotic exploration, 
science, and aeronautics.
    Last week's House Subcommittee mark of our 2012 
Appropriations Bill was another stark reminder that we are 
making this critical decision in exceptionally challenging 
fiscal times.
    I commit that we will re-double our efforts to keep this 
Committee informed of our progress. While I would hope to have 
a final decision to announce this summer, the absolute need to 
make sure our SLS program fits within our overall budget 
constraints suggests that it may take longer. While we are 
going through the process on that decision, we are continuing 
to make investments such as the following.
    Assembly of the Orion Ground Test Article was recently 
completed, and it is being prepared for a series of ground-
based, environmental tests to validate the Orion design and 
computer models.
    The former Ares project has focused their development 
efforts on technologies and processes that could be utilized in 
the eventual SLS configuration, including vehicle avionics, J-
2X engine testing, first stage motor testing, the developmental 
motor 3, and installation of upper-stage tooling applicable to 
large diameter tanks.
    The J-2X engine is fully assembled and installed in the A-2 
Test Stand at NASA's Stennis Space Center. The engine began a 
series of ten test firings on July 6.
    Significant progress has been made in the modifications to 
Pad B at Launch Complex 39. There are new fiber optic cables 
replacing the copper wire, and by the way, we recovered 
$621,000 from scrap copper. New digital control systems for the 
pad utilities and a state-of-the-art lightning protection 
system that helped us clear the Shuttle during STS-135 
processing. This has been done in continued preparation for a 
clean pad multi-user capability, including SLS.
    Although NASA must still finalize an integrated test flight 
plan, based on the President's fiscal year 2012, budget 
request, NASA is currently targeting the first uncrewed SLS 
development flight for late 2017 to support a crewed mission by 
the early 2020s and a visit to an asteroid in 2025.
    We look forward to working with the Congress as we finalize 
our strategy for achieving human spaceflight to many 
destinations in our solar system. I share your sense of urgency 
about moving forward but ask for your continued patience as we 
together build an affordable, sustainable, and realistic Space 
Launch System.
    Mr. Chairman, I would be pleased to respond to any 
questions you or other Members of the Committee may have.
    [The prepared statement of Mr. Bolden follows:]
      Prepared Statement of The Honorable Charles F. Bolden Jr., 
      Administrator, National Aeronautics and Space Administration
    Chairman Hall and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the future of NASA's 
human spaceflight program, and in particular the progress NASA is 
making on developing the next-generation human spaceflight 
transportation systems known as the Space Launch System (SLS) and the 
Multi-Purpose Crew Vehicle (MPCV), as well as their associated mission 
and ground support elements and other programs.
    With passage of the NASA Authorization Act of 2010 (P.L. 111-267) 
on October 11, 2010, NASA has a clear direction for our human 
spaceflight programs. NASA appreciates the significant effort made in 
advancing this important bipartisan legislation, and we look forward to 
working with you to shape a promising future for our Nation's human 
spaceflight programs. With the enactment of the FY 2011 Full-Year 
Continuing Appropriations Act (P.L. 112-10), NASA is aggressively 
moving forward with our next-generation human spaceflight system 
development efforts as authorized.
    The President's FY 2012 budget request continues to focus Agency 
efforts on a vigorous path of innovation and technological development 
leading to an array of challenging and inspiring missions to 
destinations with an incredible potential for discovery, increasing our 
knowledge of our solar system, developing technologies to improve life, 
expanding our presence in space, increasing space commerce, and 
engaging the public. The request supports an aggressive launch rate of 
about 40 missions from FY 2011 through FY 2012, including U.S. and 
international flights to the International Space Station (ISS) as well 
as science missions flown to Earth orbit and beyond. Within the human 
spaceflight arena, our foremost priority is safely and productively 
conducting our current human spaceflight endeavor. The FY 2012 budget 
request also maintains a strong commitment to human spaceflight beyond 
low-Earth orbit (LEO) via a capability-driven architecture that will 
focus on increasingly complex missions as we develop the technical 
expertise to reach destinations ever deeper into our solar system. At 
present, as designated by the President, our initial destination for a 
human mission is a crewed flight to an asteroid by 2025, followed by a 
human mission to Mars in the mid-2030s. Our post-Shuttle human 
spaceflight plan also focuses on utilization and operation of the ISS 
and on establishing a U.S. commercial cargo and crew capability to 
reach this National Laboratory. It establishes critical priorities and 
invests in the technologies and excellent science, aeronautics 
research, and education programs that will help us win the future.
    In terms of our next-generation human spaceflight system, the SLS 
and MPCV will be capable of transporting astronauts to multiple 
destinations beyond LEO. The capabilities provided by these two vehicle 
systems are necessary for all activities beyond LEO. While our plan 
calls for the initial destination for human flight beyond LEO to target 
an asteroid by 2025, other destinations could include cis-lunar space 
such as the Earth-Moon Lagrange points, the lunar surface, and 
eventually Mars and its moons. All of these places hold incredible 
information for us--information that we probably do not even know 
exists at this point. Compelling missions to advance exploration will 
be enabled by coupling these spacecraft systems with others needed for 
particular missions. This journey begins with the SLS and MPCV as the 
first important core elements of the evolutionary exploration approach 
to accomplishing a broad spectrum of missions.
    To date, as NASA has reported to the Committee, the Agency has 
determined that the beyond-LEO version of the Orion Crew Exploration 
Vehicle is NASA's new MPCV, and as such, the current Orion contract 
with Lockheed Martin Corporation is being used through at least the 
development phase of the vehicle.
    NASA has been working expeditiously to complete assessments of SLS 
design options and develop a final integrated proposal for MPCV/Orion 
and SLS. NASA has been conducting detailed technical analysis since the 
enactment of the NASA Authorization Act of 2010, and is working towards 
selecting a technical approach that will meet the intent of the SLS 
configuration described in the NASA Authorization of 2010 and enable 
the Nation to conduct a sustainable program of exploration. NASA's 
intent is that the design would evolve over time to meet the end goals 
of the SLS configuration in the Authorization Act. NASA is exploring 
strategic approaches that would be adaptable to modifications in annual 
funding and still make significant progress toward the end design. The 
SLS and MPCV teams are continuing to develop an integrated development 
plan that will be affordable in the near term and over the long run. In 
doing so, we are striving to design an evolvable and interoperable 
human spaceflight transportation system that will serve us for decades 
to come as we explore multiple compelling mission destinations. Due 
diligence will ensure the best value for the taxpayer with respect to 
cost, risk, schedule, performance, and impacts to critical NASA and 
industrial skills and capabilities in this multi-billion dollar 
endeavor.
    While NASA has made significant progress to date on both the SLS 
and the MPCV, much work remains ahead for the Agency, as we finalize 
development plans and acquisition decisions per normal Agency processes 
for the SLS-decisions that must remain consistent with NASA's Strategic 
Plan and Agency commitments, as well as the NASA Authorization Act of 
2010.
    In a constrained budget environment, NASA knows how important it is 
to identify ways to make our programs and projects more efficient, so 
finding and incorporating these efficiencies remains a primary goal. We 
have embraced the challenge to deliver human spaceflight systems for 
lower cost, and the opportunity to become more efficient, innovative 
and agile in our programs. For example, we are revising the management 
of our requirements, contracts, and projects and incorporating 
approaches to ensure affordability in the near term and over the long 
run. This includes the use of focused insight/oversight, specifying to 
industry--where appropriate --what we need instead of how to build it, 
designing for cost-effective operations, increasing the use of common 
components and parts, and wisely consolidating infrastructure.
    The remainder of my testimony will address progress made to date on 
the SLS and MPCV Programs, as well as outlining the work ahead of us in 
order to ensure that we develop systems that reflect the NASA 
Authorization Act of 2010 using an affordable, sustainable and 
realistic approach.
    However, before I explore those topics, I would like to take a 
moment to personally recognize the thousands of NASA civil servants and 
industry team Members who have worked selflessly for countless hours, 
often under difficult circumstances and in a turbulent environment, to 
make our human spaceflight programs and projects productive and 
successful. In the days ahead, these incredible and talented employees 
will continue to do whatever it takes to make sure that the United 
States remains the world's leader in human spaceflight. After all, they 
do not know how to commit to anything less. I would also like to thank 
the Committee for its continued strong support for NASA's human 
spaceflight programs and their value to the Nation, especially as we 
work hard to finalize details of a well-thought-out strategy for our 
next-generation human spaceflight programs.

An Integrated Launch System: A Work in Progress

    Over the last several months, NASA has been evaluating options for 
developing an integrated and incremental development approach for the 
SLS, MPCV and the associated ground operations that will be capable of 
achieving progress in an incremental manner while also reflecting the 
goals and objectives of the NASA Authorization Act of 2010, the FY 2011 
Full-Year Continuing Appropriations Act (P.L. 112*10), and in a 
sustainable manner.
    In order to accomplish this task, NASA put together a series of 
teams to develop an Analysis of Alternatives (AoA) that would meet 
future human spaceflight goals established by law and by Administration 
policy. In general, an AoA is a study intended to aid decision making 
by comparing various options and illuminating the risk, uncertainty, 
and the relative advantages and disadvantages of alternatives being 
considered to satisfy a mission need.
    The AoA process produced many important results that will help 
inform NASA's final decision for the architecture approach for SLS by 
evaluating various technical designs. This SLS process has also sought 
to incorporate input from industry via a broad area announcement which 
collected industry suggestions and comments that have proven to be very 
useful in the design development process. NASA's goal is to develop an 
SLS architecture that represents the best ideas from industry and NASA.
    NASA is currently evaluating the potential options for future 
missions that could enable continued progress toward longer-duration, 
beyond-LEO destinations. NASA is strongly considering an early flight 
test program, not unlike that we are conducting with our commercial 
partners for the evolving LEO capability. Such a program has many 
benefits, such as earlier access to data that could inform future 
design iterations or be applied to other programs, etc. and could also 
mitigate gaps in the current NASA industrial base and workforce skills. 
If implemented, NASA believes that this early mission strategy could 
effectively utilize and evolve existing capability (workforce, 
hardware, and contracts) to begin the next human exploration venture 
quickly. Over the next months, NASA will continue to evaluate this type 
of integrated strategy, including cost and schedule, through normal 
Agency program formulation activities, and we will continue to keep 
Congress apprised of our progress. Final acquisition decisions for the 
SLS are expected in the next couple of months, and we will provide 
those to Congress as soon as they are available.
    Very early on in this process, I directed that we complete an 
Independent Cost Assessment (ICA) of our integrated SLS/MPCV 
development approach--particularly in terms of the Agency's initial 
cost and schedule estimates for the SLS. This ICA work is ongoing. I 
want to have a sanity check on our cost and schedule estimates before 
we make a final commitment to what will be a critical, but expensive 
venture for our nation. NASA has contracted with the firm of Booz Allen 
Hamilton, Inc. to perform this work, and final results from the company 
are expected in late July/early August. To be clear, the ICA will only 
have the fidelity that reflects the maturity of the SLS architecture 
concepts described above. I have also chosen not to do comparative cost 
estimates of all the alternatives to enable the assessment to focus on 
some of the most promising alternatives. Since the SLS proposal is 
still considered to be in the pre-formulation phase, the initial 
assessment will be a rough order of magnitude (ROM), which is typical 
of pre-formulation planning that occurs before a decision is made to 
baseline and fund a program. Official baselining of a program occurs 
upon successful completion of the Preliminary Design Review, when 
system requirements are fully defined and system design concepts are 
mature. It is at this point that the Agency will commit to an 
established life cycle cost and schedule.

The MPCV Program

    The NASA Authorization Act of 2010 directs that NASA develop an 
MPCV that continues the advanced development of the human safety 
features, designs, and systems in the Orion Project.
    The MPCV will transport the crew from the Earth's surface to a 
nearby destination or staging point and return the crew safely back to 
the Earth's surface at the end of a mission. The MPCV will provide all 
services necessary to support a crew of up to four for up to 21-day 
missions (for very long beyond-LEO missions, such as exploration of 
near-Earth asteroids or other planetary bodies, additional elements--a 
space habitation module for example--will be included to provide long-
duration deep space habitation capability).
    Mounted on top of the SLS for launch and ascent, the MPCV will be 
capable of performing abort maneuvers to safely separate from the 
launch vehicle and return the crew to the Earth's surface. The MPCV 
will also be capable of performing in-space aborts if conditions 
require the immediate safe return of the crew. MPCV will include the 
necessary propulsive acceleration capability to rendezvous with other 
mission elements and return the flight crew from the destination to the 
Earth's surface. In-space operations, such as rendezvous and docking 
and extravehicular activities, will be performed with the MPCV in 
conjunction with other mission elements.
    The NASA Authorization Act of 2010 requires that the MPCV be 
capable of efficient and timely evolution--something that has been in 
practice throughout the design process for the Orion vehicle. 
Continuing this process for MPCV will allow for an incremental or 
``block'' development and mission capability approach. This will allow 
for early progress to be made on the fabrication of key design aspects, 
depending on available funding, while utilizing early testing to buy 
down risks associated with subsequent block configurations. Each test 
cycle will also provide an opportunity to on-ramp or off-ramp 
capabilities as the design evolves.
    In late May, and after careful analysis and deliberations by a 
senior management team, I decided to accept the Orion-based reference 
vehicle design, first outlined in NASA's January 2011 report to 
Congress, as the Agency's MPCV. As part of my decision process, I 
determined that the Orion was already being built to meet the 
requirements of a deep-space vehicle and that the Agency's current 
Orion contractual partnership with Lockheed Martin Corporation maps 
well to the scope of the MPCV requirements outlined in the NASA 
Authorization Act of 2010. Therefore, the current contract will be used 
at least for the development phase of the MPCV.
    Moving forward, work on the MPCV will focus only on the deep-space 
design. While the MPCV could be called upon to service the ISS--a 
backup requirement established by the NASA Authorization Act of 2010 --
it should be well understood that utilizing the MPCV for routine ISS 
transportation would be a very inefficient and costly use of the MPCV 
deep-space capability. NASA is confident in the ability of our 
commercial and international partners to provide all currently foreseen 
support for the ISS. Therefore, there is no intention to conduct 
routine LEO missions with the MPCV.
    It is important to point out that my decision regarding MPCV does 
not reflect a ``business as usual'' approach for the Agency. Over the 
last year, the NASA/Lockheed Martin team has shown exceptional 
creativity in finding ways to keep costs down by implementing new 
management techniques, technical solutions and innovation within the 
Orion Project. Since the NASA Authorization Act of 2010 was signed into 
law, the Orion government and industry team has assessed and 
implemented additional affordability initiatives that have reduced 
Design, Development, Test and Evaluation costs and enabled schedule 
acceleration. These initiatives include but are not limited to:

    <bullet>  Furthering the incremental approach to building and 
testing vehicle capabilities;

    <bullet>  Streamlining Government oversight and insight;

    <bullet>  Reducing formal deliverables and simplifying processes 
while retaining adequate rigor;

    <bullet>  Utilizing high fidelity engineering development units in 
lieu of flight-equivalent hardware in test facilities and labs;

    <bullet>  Consolidating test labs and re-use of test articles; and,

    <bullet>  Enhancing the approach for spacecraft processing by 
employing applicable Space Shuttle processes and certified Shuttle 
personnel.

    Over the last year, NASA developed and executed plans for an 
incremental development approach for the Orion, due in large part to 
the constrained fiscal environment. This approach deferred work on some 
systems while focusing on core components and systems that could be 
applicable to MPCV, with the aim of attempting to enable incremental 
test flights and subsequent upgrades to full operational capabilities 
as quickly as the budget profile allows. In doing so, NASA deliberately 
prioritized Constellation funds, including those for Orion, to maximize 
their use in support of transition to SLS and MPCV. Examples are listed 
below.

    <bullet>  Assembly of the Orion Ground Test Article (GTA) was 
recently completed, with the GTA being prepared for a series of ground-
based environmental tests to validate the Orion design and computer 
models. The GTA is undergoing vibration and acoustic testing this 
summer, and will undergo drop testing at Langley Research Center Water 
Basin Facility in Virginia this fall. Data collected from GTA testing 
will be incorporated into MPCV development efforts so as to result in a 
safe, reliable and affordable human-rated crew capsule. Design work for 
the subsequent test article is also proceeding, including conducting 
periodic technical reviews. In FY 2012, testing on the GTA will be 
completed. Fabrication work and assembly work for the following test 
article will also be well underway.

    <bullet>  A new sensor technology has been developed that will 
allow easier, safer, and more affordable on-orbit rendezvous and 
docking to the ISS for future spacecraft, including the MPCV as well as 
commercial cargo and crew providers. The Orion Vision Navigation System 
(VNS) is an advanced Light Detection And Ranging (LiDAR) -based 
relative navigation sensor with performance specifications unmatched in 
today's relative navigation sensor market. The VNS uses cross-cutting 
technology that has been developed in partnership with commercial 
vendors and is applicable to future spacecraft requiring rendezvous and 
dockings, as well as terrestrial commercial applications. In May 2011, 
NASA tested the VNS system aboard STS-134. During this test, a 
prototype docking camera provided a resolution 16 times higher than the 
current Space Shuttle docking camera. Once completed, the VNS system 
should be able to provide rendezvous data to approaching vehicles as 
far away as three miles, which is three times the range of the current 
Shuttle navigation sensor.

    <bullet>  During the last year, progress continued on the 
construction and outfitting of Orion support facilities. NASA is now in 
the process of deciding how and when these facilities will be used by 
the MPCV Program.

    NASA is hoping to be able to launch an initial uncrewed test flight 
of an integrated early version of the SLS and the MPCV as early as 
2017.

The SLS Program

    The SLS will be the Nation's first exploration-class, heavy-lift 
launch vehicle since the Saturn V and will serve as the critical next 
step beyond the Space Shuttle and three decades of LEO operations.
    The NASA Authorization Act of 2010 directs that NASA develop an SLS 
that is capable of accessing cis-lunar space and other regions of space 
beyond LEO. The Act also states that the SLS must be capable of lifting 
the MPCV, and that the SLS must be able to initially lift 70-100 metric 
ton (mT) to LEO, while ultimately being evolvable to a lifting capacity 
of 130 mT or more. As such, the SLS flights will be capable of lifting 
the MPCV and other exploration flight elements into space for missions 
to the Moon, Lagrange points, asteroids, and ultimately to Mars. The 
MPCV design will be optimized for beyond-LEO exploration, and while 
contingency utilization for the ISS is a possibility, consistent with 
the Authorization Act of 2010, doing so would represent a highly 
inefficient vehicle usage.
    In January 2011, NASA announced that it had chosen a Reference 
Vehicle Design for the SLS derived from Ares and Space Shuttle 
hardware. That concept vehicle utilized a LOX/LH2 core, five-segment 
solid rocket boosters, and a J-2X-based Upper Stage as the 130-mT 
version of the vehicle--evolvable from the 70-100-mT version. As 
envisioned, this Reference Vehicle Design would allow for use of 
existing Shuttle and Ares hardware assets in the near term, with the 
opportunity for later upgrades and/or competition for eventual upgrades 
in designs needed for affordable production. However, NASA has 
continued to study other alternative architectures as part of its due 
diligence. In so doing, NASA has identified several characteristics 
that the ultimate SLS design may include.

    <bullet>  Evolvable development: While our initial development 
efforts would focus on the 70-100-mT lift capability, in parallel, we 
would plan to capitalize on synergies between Core Stage and Upper-
Stage design and manufacturing, thereby allowing us to develop some of 
the upper-range capabilities for an eventual 130-mT vehicle at the same 
time, as funding permits. Doing so is actually a fairly natural, 
evolvable progression in terms of developing these capabilities.

    <bullet>  Commonality of systems: The use of common elements (e.g., 
common propellants, common manufacturing, and common avionics and 
control systems) across the entire SLS can enable the same or similar 
equipment and manufacturing to be used for both systems. This makes 
more efficient use of the infrastructure and increases throughput 
through manufacturing. This ultimately can lower costs.

    <bullet>  Modularity of Elements: With the availability of three 
stages (Core, First, and Upper) to work with, NASA could structure each 
specific launch vehicle to achieve specific requirements such as thrust 
capability. Doing so would allow NASA to capitalize on cost savings. 
For example, if a specific mission did not need 130 mT in thrust 
capability, NASA could potentially save funds by not having to use 
booster stages on that mission. In addition, modularity offers the 
benefit of metering development costs commensurate with available 
funding levels.

    <bullet>  Industrial Base: We would work with the space launch 
community in general in an effort to help strengthen the overall 
industrial base.

    <bullet>  Flexibility: Although the SLS is expected to be costly to 
fly, it will have an unmatched payload capacity. The ability of the SLS 
to carry either the MPCV or large cargo also allows the SLS to carry 
robotic payloads for science or national security missions, although 
there are currently no requirements for such large payloads. The 
additional volume and lift capability could allow designers to either 
simplify the spacecraft by choosing to reduce deployments or eliminate 
the need for costly weight reductions;, to take advantage of the 
additional volume and lift capability to enable more capable missions; 
or to increase the duration and frequency of launch windows for 
planetary missions. To ensure that we have kept other agencies informed 
with our future plans for launch systems, we have provided periodic 
briefs on the progress of our SLS and MPCV deliberations to their 
senior leadership.

    To be clear, as previously stated, much work remains ahead for the 
SLS team. We are working hard to finalize the analysis on the best 
option for venturing beyond LEO as quickly as possible and at the 
lowest near-term development cost.
    Currently, NASA has procurement teams mapping SLS requirements 
(those outlined in the NASA Authorization Act of 2010 and those we are 
currently developing). For the SLS, NASA is reviewing each element of 
Ares (First Stage, Upper Stage, Upper Stage J-2X engine, and avionics) 
and Shuttle Program contracts (Space Shuttle Main Engines, External 
Tank, SRB) to determine whether the new SLS requirements would be 
within scope of current contracts. At the same time, NASA is assessing 
SLS competition options, including the potential degree of competition.
    Although NASA must still finalize an integrated test flight plan, 
based on the President's FY 2012 budget request, NASA is targeting that 
the first uncrewed SLS developmental flight or mission could take place 
in late 2017 to support a crewed mission by the early 2020s and a visit 
to an asteroid in 2025. This target date also depends on how quickly 
acquisition decisions are made so that physical development work can 
begin on SLS elements and integration processes.
    NASA is strongly considering an early mission/test flight strategy 
that would include early flights that would begin with a lift capacity 
in the 70-100 mT range, sufficient to get out of LEO with meaningful 
mission content, with the first flight targeted for the end of 2017 and 
the second flight targeted for 2021. Therefore, the 70-100 mT flight 
configuration will offer early development of the Core Stage, 
continuation of the Orion-based design as the MPCV, an Upper Stage/kick 
motor capability that will enable a series of development missions/test 
flights beyond LEO, and use of existing solid rocket boosters.
    Early test flights for the SLS, if carefully planned, could enable 
NASA to reduce development risk, drive innovation within the Agency and 
in private industry, and accomplish early exploration objectives. I 
have stressed to the SLS team that we must make every test flight count 
in a constrained budget environment; that is why the NASA teams are 
still working to develop an integrated SLS/MPCV test flight schedule 
that will be part of an overall incremental development approach 
consistent with anticipated cost constraints.
    Moving forward on the SLS, one of NASA's greatest challenges will 
be to reduce the development and operating costs (both fixed and 
recurring) for human spaceflight missions to sustain a long-term U.S. 
human spaceflight program. We must plan and implement an exploration 
enterprise with costs that are credible and affordable for the long 
term under constrained budget environments. As such, our development 
efforts also will be dependent on a realistic budget profile and 
sufficiently stable funding over the long term, coupled with a 
successful effort on the part of NASA and our eventual industry team to 
reduce costs and to establish stable, tightly-managed requirements.
    Additionally, the SLS Program will continue to examine ways to 
increase efficiency and agility to deliver an affordable and achievable 
heavy-lift system as soon as possible. Examples being considered in 
formulating SLS plans include the following:

    <bullet>  Consolidating infrastructure wisely;

    <bullet>  Using common parts and common designs across the 
Government to reduce costs;

    <bullet>  Ensuring requirements are appropriately specific and also 
that requirements applied to NASA crew launch vehicles are similar to 
those provided to our eventual commercial crew partners, thereby 
ensuring that NASA vehicles are not required to meet more substantial 
requirements than commercial crew vehicles and vice versa;

    <bullet>  Conducting insight/oversight activities of our contract 
partners in a smarter way, thereby using our resources more 
appropriately to focus on the high-risk items; and

    <bullet>  Ensuring that there are no unique configurations or 
developments that do not end up directly supporting the final system.

    NASA has continued to make progress on developing a crew launch 
vehicle over the last year. Due to legal restrictions that have since 
been rescinded, NASA had been prevented from terminating any 
Constellation-related work. However, in the meantime, the Agency was 
able to prioritize Constellation work that had a high likelihood of 
feeding forward into the new SLS and MPCV Programs.
    For example, during FY 2011, the former Ares Project worked closely 
with SLS planning team to focus their development efforts on 
technologies and processes that could be utilized in the eventual SLS 
configuration, including vehicle avionics, J-2X Engine testing, First 
Stage motor testing (Development Motor-3), and installation of Upper 
Stage tooling applicable to large-diameter tanks. At the same time, the 
former Ares Project deferred activities that were Ares-I-dependent, 
including a ground vibration test article and design of Upper Stage 
component hardware, such as the reaction control system.
    The J-2X engine is an example of significant progress made during 
FY 2011 that could be directly applicable to the SLS Upper Stage 
engine. The J-2X engine is fully assembled and installed in the A-2 
Test Stand at NASA's Stennis Space Center and has been readied for its 
first round of testing. The engine began a series of 10 test firings on 
July 6 and testing will occur over several months. Collected data will 
verify the engine functions as designed.

Conclusion

    In conclusion, Americans and people worldwide have turned to NASA 
for inspiration throughout our history--our work gives people an 
opportunity to imagine what is barely possible, and we at NASA get to 
turn those dreams into real achievements for all humankind.
    With the passage of the NASA Authorization Act of 2010, NASA has a 
clear direction and is making plans for moving the Agency forward. 
Today, we have a roadmap to even more historic achievements that will 
spur innovation, employ Americans in fulfilling jobs, and engage people 
around the world as we enter an exciting new era in space. NASA 
appreciates the significant effort that has gone into advancing this 
bipartisan legislation.
    Let me assure you that NASA is committed to meeting the spaceflight 
goals of the Nation and fulfilling the requirements of the NASA 
Authorization Act of 2010. As such, we are committed to developing an 
affordable, sustainable, and realistic next-generation human 
spaceflight system that will enable human exploration, scientific 
discovery, broad commercial benefits, and inspirational missions that 
are in the best interests of the Nation. We look forward to working 
with you and other Members of Congress as we finalize our strategy for 
achieving human spaceflight to many destinations in our solar system.
    Chairman Hall and Members of the Committee, I would like to 
conclude my remarks by thanking you again for your continued support 
for NASA and its human spaceflight programs. I would be pleased to 
respond to any questions you or the other Members of the Committee may 
have.

    Chairman Hall. I thank you, and I tell the Members that we 
did not set a 5-minute request of you because of the importance 
of this meeting and the importance of the questions and the 
answers we ask.
    Mr. Bolden. Thank you, Mr. Chairman.
    Chairman Hall. We are at a crossroads trying to preserve 
our Space Station, and we are going to take all the time we 
really need. I would remind the Members of the Committee, 
though, that we are limited to five minutes, and try to stay 
within five minutes, and I will stay within my five minutes.
    So the Chair recognizes himself for five minutes. Mr. 
Bolden, recently a senior NASA official, I think it was Ms. 
Garver, NASA Deputy Administrator, was talking about the 
agency's human spaceflight program. It was quoted in the press 
as saying, and I quote, exact quote, ``We have a program, we 
have a budget, we have a destination. We are just putting finer 
points on the rocket design.''
    That was in the Washington Post, July 2, 2011, and I am 
trying to reconcile these comments with your testimony this 
morning, and it leaves me a little confused. Your testimony 
highlights work still to be done.
    Let me reread her announcement. ``We have a program. We 
have a budget, we have a destination. We are just putting fine 
points on the rocket design.''
    Your work is still to be done, including cost assessments. 
It will take a couple of months to complete probably. Yet 
another senior agency official suggests virtually all the 
decisions have been made except for a couple of minor tweaks to 
the rocket's design.
    Can you reconcile these two views? You both just can't be 
right.
    Mr. Bolden. Mr. Chairman, unfortunately we are all right, 
and I will try to explain that. We do have a program, and we 
have a very well-defined program right now for space 
exploration. It is a program that features a Space Launch 
System or a heavy-lift launch or heavy-lift rocket that will 
start at a 70 to 100 metric ton capability evolving to 130 to 
150 metric tons. It has an MPCV which is already--the design 
for which has already been selected, and it has a ground launch 
system that we--I tried to point out some of the things that 
have already been done with that system at the Kennedy Space 
Center.
    We have engines on the pad at Stennis that will be involved 
in this system. We have a budget because you all gave it to us 
in the form of the 2010 Authorization Act supplemented by the 
2011 Appropriations Budget.
    So with that budget and the President's 2012 proposal to 
you is what we are basing our program and our timelines on, and 
those timelines include what I gave to you. The President 
continually says that he has laid down the gauntlet for me. He 
has told me that he wants humans around an asteroid in 2025. I 
am going to put a satellite called DAWN around this--the 
Asteroid Vesta the end of this week as a precursor for sending 
humans there. Not that asteroid. We don't know what asteroid we 
are going to visit in 2025. It is too far out, but we will 
determine what that is. But we do have a program, we do have a 
plan. You have given us a budget, and I am very confident that 
we are going to be able to execute.
    Chairman Hall. Well, our confidence is shaken some by the 
inaction, not just this year but last year. The NASA 
Authorization Act of 2010 directs NASA to design the Multi-
Purpose Crew Vehicle to, ``provide an alternative means of 
delivery of crew and cargo to the International Space Station 
in the event of other vehicles, whether commercial vehicles or 
partner-supplied vehicles, are unable to perform that 
function.''
    However, since your announcement last May I have heard 
conflicting reports about NASA's compliance with this 
requirement. So is the Multi-Purpose Crew Vehicle being 
designed as backup crew support for the Space Station?
    Mr. Bolden. Mr. Chairman, it is not being designed as 
backup crew support, however, it is as a vehicle that is 
designed for deep-space exploration, it can function as a 
backup for crew rescue.
    Chairman Hall. It is not being designed, but it is being 
designed.
    Mr. Bolden. No, no, no, sir. You asked if it was being 
designed as a backup for low-Earth orbit operations, and my 
response is it is not being designed as such. Its design is as 
a deep-space exploration vehicle. What that means is when we go 
to deep space and return to Earth, having to go through its 
atmosphere, the energy that we have to absorb or dissipate, the 
speed at which we reenter, the pressures on the vehicle are 
much higher than they are on a low-Earth orbiting vehicle.
    So if I design it for low-Earth orbit operations, it can't 
function in deep space. If I design it for deep space, it can 
function in low-Earth orbit, very inefficient, a waste of the 
government's money, but it will be able to do that. So it will 
have the capability of serving as a backup should it be needed.
    I would not advise that, and if we have to use it that way, 
it means one of two things have happened. Either all the 
commercial entities have gone bankrupt and quit, or we have had 
an accident involving a commercial vehicle. Those are the only 
two reasons that I can foresee using Orion as a low-Earth 
operating vehicle, and I don't--I hope neither of those 
happens.
    Chairman Hall. My time is up. I yield back and recognize 
Ms. Johnson for her five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Bolden, I am still a little bit confused, but let me 
just ask this. How will the decision on the final SLS 
architecture affect the government and contractor aerospace 
workforce? Will we require more people? Will a lot of people be 
laid off, or will the decision stabilize the current workforce 
and potentially create new jobs? Or what is your projection?
    Mr. Bolden. Congresswoman, the sooner we make the decision, 
the more I can say we will stabilize the workforce at whatever 
level it happens to be then. We are in the process of a seven-
year, very well thought out transition plan from phasing out 
the Shuttle, which was decided by the previous Administration, 
not this one. My job is to execute a decision made by my 
predecessors, and I am on the verge of doing that next week 
when we land STS-135, and when people hear wheels stop, it will 
mean I have done my job.
    And I will be a very happy camper because my pledge when I 
became the NASA Administrator was to safely fly out the 
Shuttle. That is not done yet. So I still have work to be done.
    Once we put the next program into place, jobs will begin. 
We will begin to bring people back on at some rate. Right now 
we are trying to help people transition to other places in the 
aeronautics, in the aerospace workforce, and we are having 
success at that. We placed 1,000 workers with the Embraer down 
in Melbourne, Florida. We have put some other workers with an 
automobile company in Melbourne, Florida. That is work that 
NASA is trying to facilitate, but we don't do that.
    I am trying to get people in Brevard County in the State of 
Florida to go out and recruit to bring businesses into the 
space coast. I am trying to get people around the country, in 
Houston, in Salt Lake City, other places, I need help, you 
know. My job is not to go out and recruit. I need for the 
states to do a little bit also.
    Ms. Johnson. One other question. The Space Station has been 
a wonderful achievement. Are we going to leave all of that 
maintenance to Russia, or how are we going to handle it?
    Mr. Bolden. Congresswoman, we have budgeted in all of the 
budgets that you all have approved for us and in the 
President's proposed budget for 2012, we have budgeted to fly 
the Space Station through 2020. We have done technical 
evaluations to determine if we can fly it longer, and we think 
we can. Americans will be in space operating at least through 
2020.
    So I need to clarify once and for all, I hope, we are not 
abandoning human spaceflight. We have a big job to do in 
operating the International Space Station for the next nine 
years at least. I just selected or just approved the assignment 
of American astronauts to fly on the International Space 
Station through 2015, 2016. We have more astronauts to be 
assigned, and in fact, they asked me, Houston asked if they 
could go out and recruit more astronauts to operate on the 
International Space Station because they anticipate they are 
not going to have enough.
    So anybody who thinks we are abandoning human spaceflight, 
that is not the case. The kids you talked about who want to be 
astronauts, they are not going to make Shuttle because it is 
going, but they will walk on Mars, you know, provided we work 
together. I hope I am not the only optimist in the room. I have 
faith in American industry, and I know we can do this. So if it 
seems like I am naive or Pollyannaish, I am not. I am just 
optimistic, and I have faith in American industry.
    Ms. Johnson. Thank you. I am depending on you not to let me 
down.
    Mr. Bolden. I won't.
    Chairman Hall. The gentlelady's time has expired.
    The Chair recognizes the gentleman from California, Mr. 
Rohrabacher, for five minutes.
    Mr. Rohrabacher. One thing is for sure. The United States 
Marine General is not Pollyanna.
    Mr. Bolden. Thank you.
    Mr. Rohrabacher. All right. General, it is rather 
disconcerting to take a look at the NASA budget over the years. 
I have been here 22 years, and I have seen so many decisions 
that led to nothing frankly, except the expenditure of billions 
of dollars, and I remember the X-33 Venture Project that there 
was big decisions made. We were going to do that over the DCX, 
and what we ended up with was spending a lot of money and 
getting nothing out of it. And there are other programs like 
that. And a number of these times that we have seen decisions 
made based on, frankly, pressure from Congress, not just 
decisions made by the Executive Branch.
    Right now we are trying to make some fundamental decisions 
that will carry our country forward for over a long period of 
time. The Russians I understand have been using the Soyuz since 
1966, and it still is a very viable system, transportation 
system. We have Delta, Atlas, EELVs. These rocket systems are 
still very capable of conducting space missions, are they not?
    Mr. Bolden. Congressman, they are very capable, but I would 
point out the Soyuz spacecraft, which looks the same on the 
outside, the last two flights on Soyuz with our astronauts 
aboard have been new spacecraft for all intensive purposes. 
They have new avionics. One of the reasons we could not do a 
fly-around to take a picture of the stack when we had every 
vehicle known to man there was because we were not--we could 
not bring ourselves to be comfortable that a brand new vehicle 
could be backed off, flown around the stack and--to take 
photographs before we had had some more in-depth study.
    So it is a new vehicle.
    Mr. Rohrabacher. And their approach has been to perfect it, 
perfect the vehicle.
    Mr. Bolden. Their approach is unlike ours. We do 
revolutionary stuff.
    Mr. Rohrabacher. Right.
    Mr. Bolden. They do evolutionary stuff.
    Mr. Rohrabacher. And sometimes evolutionary stuff may be 
actually more cost effective than doing revolutionary stuff 
that doesn't work.
    Mr. Bolden. Congressman, I don't disagree with you, and if 
you look at the SLS and the MPCV, it is a hybrid of evolution 
and revolution.
    Mr. Rohrabacher. Okay. Let us just note that when we are--
we are now being, you know, stampeded into building this mega 
new rocket rather than utilizing the systems that we have, you 
know, and trying to find a way to accomplish the same mission 
with the rockets that we do have. In other words, putting 
things into orbit and doing the work up there and then moving 
on rather than to keep doing everything in one big rocket.
    If we spend money that might be done more cheaply by 
utilizing the systems we have, is this what--is the price that 
we are paying things like the telescopes and the cleaning up 
the space debris and maybe even some deep exploration projects, 
are we not spending money that should be going to some of those 
other goals in space?
    Mr. Bolden. Congressman, I don't think so. If you look at 
the Hubble Space Telescope, I am partial you know, I cannot 
put--you can't put a dollar sign on the value of Hubble and 
what it has done for humankind and our understanding of our 
universe. We rewrite textbooks every day.
    Mr. Rohrabacher. Well, one dollar sign you can put on it, 
General, is if we spend all of our money on a huge vehicle that 
may or may not be absolutely necessary, the money won't be 
there for the--what is the modern version of the Hubble 
Telescope.
    Mr. Bolden. Congressman, I am not going to go back and 
forth, but, you know, if I don't build a heavy-lift launch 
vehicle, we don't have an exploration program. This President 
has given us an opportunity to hit the restart button.
    Mr. Rohrabacher. No. You don't have a human exploration 
program.
    Mr. Bolden. I am a big fan of human exploration.
    Mr. Rohrabacher. Well, I would suggest that we may want to 
explore with human beings in the far, in the distant future, 
but if insisting on exploring deep space with human beings eats 
up billions of dollars that we don't have for Hubble Telescopes 
and cleaning space debris, which is a vitally-important 
mission, that needs to be looked at. We are then chasing after 
goals that are so far in the distance that we are cutting out 
the things that we can do today.
    Mr. Bolden. Congressman, in preparation for this hearing I 
listened this morning, I went to the web, the Kennedy Center, 
Kennedy Library website, and I listened to the debate, again, 
you have heard me tell this story, but between Kennedy and 
James Webb, a Marine, who was the NASA Administrator at the 
time, and this debate took place on September 16, 1963, and it 
was about where NASA should go because President Kennedy said, 
and I quote, ``Space has lost a lot of its glamour,'' and he 
asked the NASA Administrator what we should do, and 
Administrator Webb said we should focus on science. And they 
argued. They literally yelled and screamed, and it came down to 
moon versus Mars versus science.
    Guess who won? The President and we went to the moon.
    Mr. Rohrabacher. Well, and who knows what we would have 
done with the science in the meantime.
    Mr. Bolden. We have done the science.
    Chairman Hall. Would the gentleman yield? The gentleman 
from California yield to me?
    Aren't you saying that continue to go the Station and keep 
our program there and plan those long voyages but not spend the 
money on them other than planning, and planning can cost 
whatever the Congress says we can spend? We can't go to the 
moon until our folks can go to the grocery store. That is just 
hard-cold facts, and kind of what you are saying is the economy 
is going to tell us when we can do that.
    Mr. Rohrabacher. We are right now at a point where we have 
to make tough decisions here at home, Mr. Chairman, and there 
are some things in space that are absolutely necessary for us 
to do, and by the way, I happen to believe space debris is one 
of them, although nobody seems to be paying attention to that.
    And if we instead set our goals on spending money for goals 
that are 20 years down the line in terms of sending a man to 
Mars or something like that and ignore those absolute necessary 
costs that are right on us today, we are doing a big disservice 
to this generation and future generations because we won't 
accomplish those long-term goals.
    Chairman Hall. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman, and thank you very much, 
Major General Bolden, for being here. I thank you for your 34 
years of service in the Marine Corps and your very able service 
now as NASA Administrator and also congratulations on a very 
successful launch.
    I find it very commendable that you are taking 
responsibility for many of the decisions that have been made in 
the last couple of years, but I think that we are all aware 
that just as President Kennedy prevailed in the discussions 
with Mr. Webb, that there is a President that you answer to 
just as your parallel space agency had, and Russia answers to 
someone in Moscow, and that his Chinese compatriot or colleague 
listens to someone at the head of the government in Beijing.
    And I think that some of those decisions that have been 
made do go up a little bit higher in the chain, and I am not 
completely onboard with some of them. I see my job, part of it, 
I have been a passionate advocate for making sure that in the 
relationship of competition and cooperation between different 
countries, as I have said before, that the dominant language of 
space or that the language of space be English and not Russian 
or Chinese, just as the language of aviation is English.
    I think it is very, very important that we continue to have 
that vision and so I don't want to encourage you to be anything 
other than a loyal soldier, but I do ask this of you; to either 
today or soon give me, give this Committee a high-end number, 
not what the Administration has asked for, not what the 
Congress has authorized, but what is a high-end number for what 
NASA needs to fully fund a deep-space human exploration 
program.
    Because I am not sure that this Committee has seen that 
number yet, and it is not that we will ultimately be able to 
fund at that number, but it is very, very important to have 
that goal. Because just as you have taken responsibility, 
General, I think that it is incumbent upon us in the United 
States Congress to know that we are ultimately responsible for 
not fully funding space exploration at the levels that you all 
can use, and if you would care to comment on that or if you 
have a number in your head today, I am happy to hear it.
    Mr. Bolden. Congressman, I don't have a number in my head 
today, and I will take it for the record, and I will be glad to 
get that to you, but you do point out several things.
    Decisions with reference to our space program are in three 
baskets. There is technical, and I generally am the one that 
makes those. There are policy decisions, which generally go to 
the President, and he--and I act as one of his consultants, and 
then there are budget decisions, and you and the President work 
those in consultation as we are seeing over these past weeks.
    Mr. Wu. He hasn't asked me very recently, but I look 
forward to it.
    Mr. Bolden. Well, I think you have some representatives 
with him, so my job is a little bit easier right now I think.
    Mr. Wu. Thank you very much. I yield back the balance of my 
time.
    Chairman Hall. The gentleman's time, he yields back.
    Recognize the older gentleman, Mr. Bartlett, for five 
minutes.
    Mr. Bartlett. Younger than you, though, sir. Thank you very 
much.
    I am going to be the devil's advocate for a moment, and I 
want to put my context--my comments in context. I was involved 
a bit more than a half century ago in the first suborbital 
primate flight with Monkey Able and Monkey Baker. I was at 
Pensacola, Florida, then. I was involved with training of the 
first astronauts as they came to Pensacola for the slow 
rotation room in the human centrifuge, and when they came to 
the Navy Yard in Philadelphia for work with pressure suits and 
so forth.
    There were three huge benefits to our country as a result 
of putting a man on the moon, and the first of these was 
national image. That was enormously important. Second of those 
was spin-offs, and you can point to a large number of spin-offs 
in the technology developed in putting a man on the moon. And 
the third and maybe the most important benefit to our country 
was that it captured the imagination of our people and inspired 
our young people to go into careers of math, science, and 
engineering.
    I do not know how much that contributed to our winning the 
Cold War, but those millions of young people that were inspired 
to go into the science, math, and engineering, at least some of 
those were available to our military efforts that permitted us 
to bury the Soviet Union with our progress in armaments.
    Help us make the argument, sir, that we need to continue 
funding these programs, because today if there are spin-offs, I 
don't hear of any of those, sir. And clearly nobody is 
capturing the imagination of our people, inspiring our young 
people to go into careers of science, math, and engineering, 
because this year the Chinese will graduate seven times as many 
engineers as we graduate. We face huge deficit problems in our 
country. Our deficit is a half trillion dollars more than all 
the money we vote to spend. We are laboring to try to come up 
with cuts that equal the deficit, but the cuts would be over 
ten years. The deficit is just this year. Even the Ryan budget 
doesn't balance for 25 years and balances then only if you 
assume what I think are unrealistic assumptions about cost 
growth because we are up against a world ceiling at 84 million 
barrels of oil a day.
    Help us, sir, to go out to our constituents and convince 
them that we still ought to be spending money in spaceflight 
for humans.
    Mr. Bolden. Congressman, I appreciate that, and I think we 
should be, and I can tell you that if you look at spin-offs, 
there are thousands still each year that come from space 
exploration.
    Mr. Bartlett. I don't know of those, sir, and I don't 
think--we are doing a terrible job of messaging this. You know, 
these are very dangerous missions. If one out of every 60 times 
I got in my car I died, I don't know how often I would get in 
my car, sir, but that is--we have had, what, 120 some missions. 
Two of them have ended up killing everybody on the mission. We 
have made this seem so darn ho hum that people hardly turn on 
their television anymore to watch these really spectacular 
things. We have done a very bad job of messaging this, have we 
not?
    Mr. Bolden. We have done a great job of making it look 
easy----
    Mr. Bartlett. Yeah.
    Mr. Bolden. --which is detrimental to----
    Mr. Bartlett. We have indeed, but that it is not easy, sir.
    Mr. Bolden. It is not easy at all.
    Mr. Bartlett. One out of every 60 times you get in your car 
you die, how often would you get in your car? This is tough 
stuff, sir.
    Mr. Bolden. It is.
    Mr. Bartlett. And we have made it seem very ho hum.
    Mr. Bolden. But when you ask about spin-offs, if I just 
look at medical imaging, we have a young researcher out at Jet 
Propulsion Lab working on synthetic aperture radar for the Mars 
Lander. The technology there has now been parlayed into use for 
discovering breast tumors. Never expected to use it that way, 
and the list goes on and on of things like that.
    We are working diligently in NASA to try to facilitate 
other agencies' ability to talk to young kids about the fun of 
math, science, engineering. We are really focused on STEM 
education and trying to instill a desire for young people to 
get into that type of work. We send people into schools, we 
downlink every, almost every day, conversations between 
astronauts on the International Space Station and students in 
some school around the country. We do that because we 
understand how critical it is to get our kids interested in 
science and math. We are failing as a Nation.
    You know, I wish I could take the blame there alone but I 
can't. We are failing as a Nation in inspiring kids to want to 
get into science, engineering, and math. They all want to be 
business people, because they all want to become millionaires 
right away, and they can't do that. They want it bad, and they 
get it bad.
    Mr. Bartlett. You know, I have a lot of constituents who 
have lost their jobs, and if they haven't lost it, they know 
somebody who has, and I have a tough time selling to them that 
we need to spend billions putting a man--you know, I think we 
do, sir, because I think we need to have the best image in the 
world. I think we need to capture the imagination of people and 
inspire our young people, but, you know, you need to help us 
make this sale to the American people, because we have a tough 
time doing it.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes the gentlelady from Ohio, Mrs. Fudge.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank you 
so much for being here, Mr. Bolden.
    Two quick questions. Under the plan that is being devised, 
Mr. Administrator, will NASA Glenn and another entities 
maintain the same role and responsibilities they currently have 
with SLS as we did under Ares I and we were supposed to do 
under Ares V?
    Mr. Bolden. Congresswoman, as I mentioned to you before, my 
plan right now is that the programs that--the tests that would 
be conducted at Glenn particularly for MPCV, Orion will still 
plan to be conducted there, so I don't--I see Glenn staying as 
strong and important as they have been in the development of 
future exploration systems.
    Ms. Fudge. Okay, and just to follow up on the MPCV, you 
received the letter, and we thank you for responding to the 
Ohio Delegation, and you stated that scheduling costs are now 
going to drive the MPCV testing as opposed to safety 
requirements which drove the testing before.
    Could you please just clarify that for me?
    Mr. Bolden. If I said that in a letter, then I misspoke. I 
hope I did not tell you that scheduling costs was going to 
out--override safety.
    Ms. Fudge. No, not override it but, well, I mean, you 
stated that the scheduling costs would drive how MPCV is 
tested, and this does represent a shift from Constellation 
because during--which safety requirements really drove testing. 
And if I--I may have read it incorrectly, Mr. Administrator.
    Mr. Bolden. I hope so.
    Ms. Fudge. We can talk about it.
    Mr. Bolden. Yes, ma'am, but safety is always paramount, and 
we do testing to try to enhance safety, enhance reliability, 
and the quality of our system. So you will not see a derogation 
or a degradation in our emphasis on safety.
    If I talked about scheduling costs having an impact, it is 
because as we, as I alluded to earlier, the less money I have 
to put on a program means the longer it is going to take me to 
do that program unless I can significantly de-scope it to get 
it done in the timeframe that I originally identified for you. 
One of the reasons that I am being very cautious about bringing 
numbers to this Committee or to any other Committee of the 
Congress is because I don't want to end up where we were with 
Constellation. I don't want to bring you an un-executable 
program. I am very confident that the path on which we are 
presently proceeding I will be able to bring you a program that 
is affordable, sustainable, and makes sense. I am not there 
yet, to be quite honest.
    I am the one that asked, when I talk about my 
responsibility, to give me a sanity check, for example, when we 
started this whole thing, I told my team that I wanted 
independent cost assessments, ballpark figures, not detailed 
numbers because we don't ever know details. Another lesson we 
learned. You don't--I should not give you a hard number on cost 
and scheduling until I get what is called PDR, preliminary 
design review. If I give you a hard number before that stage, I 
can almost guarantee you I am wrong.
    Congresswoman Edwards is shaking her head because she has 
been there, and she knows. So don't let me bring you a number 
that is a hard number on anything prior to us getting the PDR 
on any system, particularly multi-billion dollar system. If I 
come in and tell you that, then you throw me out because I am 
lying. Or I am really pulling it out of you know where. So I am 
not going to do that, and it frustrates everybody.
    I am trying to get a ballpark figure right now, a random 
order of merit for what this program is going to cost, and I am 
just not there yet. I need to have--we have Booz Allen looking 
at the SLS, and we have a plan for them giving us a, you know, 
an independent assessment of whether we are in the ballpark. We 
may have missed something. I don't think so because preliminary 
word is they think we--what we plan and the way we plan to 
approach it is pretty good.
    But we have a ways to go before I can bring you hard 
numbers, so don't let me do that.
    Ms. Fudge. Is there anything else you would like to say? My 
questions are complete. I thank you for your answers, and I 
thank you for your service. It is always a pleasure to have you 
testify before this Committee. I know that your task is 
difficult.
    Mr. Bolden. It is fun.
    Ms. Fudge. You call it fun. When I go home, I call it 
difficult.
    Mr. Bolden. Nobody is shooting at me, and I don't have a 
100-pound pack on my back.
    Ms. Fudge. Well, that is true.
    Mr. Bolden. So this is fun.
    Ms. Fudge. Thank you so much, Mr. Administrator.
    Mr. Chairman, I yield back.
    Chairman Hall. The gentlelady yields back.
    The Chair recognizes Mr. Fleischmann, the gentleman from 
Tennessee, for five minutes.
    Mr. Fleischmann. Thank you, Mr. Chairman. General, it is a 
privilege to be here today to hear this from you. I thank you. 
I also want to thank you. NASA personnel have come to my office 
and have already met with me to help bring me up to snuff on 
this. I am a lawyer by profession, but I really, really love 
this stuff, so I thank you for their visit and your presence 
here today.
    I have a few questions, sir. You were talking, I think, 
about the human mission into deep space and mentioned Mars and 
perhaps some other locations, an asteroid. It seems to me that 
a lunar trip, a moon trip, might be a little bit easier, it has 
been done before. Where is that in the pecking order, and what 
is NASA's plans with regard to a lunar trip, sir?
    Mr. Bolden. Under the flexible path approach that we intend 
to use, we have very hard destinations and set by the 
President, an asteroid in 2025, Mars in 2030, but there may be 
reasons, I anticipate there will probably be reasons to go back 
to the lunar surface for a period of, a short period of time 
just to make sure that we have everything we need before we 
head off to Mars.
    You know, the moon is a couple of days away, and today with 
technology rovers that we have developed and tested in the 
desert over a number of years now, we can put a couple of 
astronauts on the surface of the moon and have them roam and 
range over the moon to do research or experimentation and then 
get them back, you know, in a couple of days. When somebody 
heads off to Mars, I can't turn them around and bring them back 
in a couple of days.
    So it is unlikely that we will experience an Apollo 13 if 
we have that kind of failure on the way to Mars.
    Mr. Fleischmann. Yes, sir. Are there any other 
destinations? We talked about Mars, the moon, an asteroid. 
Anything else, sir?
    Mr. Bolden. We talk about--things that we talk about with 
our industry, as a matter of fact, are what we call 
geosynchronous orbit as a stepping stone to going to some of 
these distant places for things like satellite repair. Those 
are technological developments. If you can get to 
geosynchronous orbit, then you can, you know, you can get to 
deep space.
    So but we don't need a 130-metric-ton vehicle to do that. 
You could do that with a 70-metric-ton vehicle. You could do 
that with some of the vehicles that we have today, but they are 
not human rated, so, you know, there are a number of places.
    Mr. Fleischmann. Yes, sir. The President in his State of 
the Union was kind enough to mention ORNL, that is the lab in 
my district in Oak Ridge, fascinating place, and it is 
wonderful to represent the lab. Do you know of any role that 
they may have in deep space research, or is there any plans for 
our national labs to----
    Mr. Bolden. Sir, let me take it for the record. I do not 
know personally of what Oak Ridge is doing. When I think about 
national labs, we are always collaborating with them in one way 
or another, and I am certain there is something, but I don't 
know, and I will get back to you.
    Mr. Fleischmann. Thank you. It is a pleasure. Thank you.
    I yield back, Mr. Chairman.
    Chairman Hall. The gentleman yields back.
    The Chair recognizes Mr. McNerney, the gentleman from 
California, for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. I am over here. Good 
morning. Thank you for coming and testifying. I know you 
realize this wasn't going to be an easy session, and I 
appreciate your emotional attachment to the Space Shuttle 
Program. It means a lot.
    I am a little confused about what was submitted by NASA to 
the OMB versus what was submitted to Booz Allen. Could you kind 
of go into that a little bit so we will get an understanding in 
the Committee here?
    Mr. Bolden. What we submitted to OMB as a part of the 
decision making process was a decision memorandum from me that 
outlined the technical design of a vehicle that I would 
propose. Booz Allen is the consulting firm that I have asked to 
take a look at that technical proposal and tell me whether or 
not the schedule and cost that I have--that my folk have made 
is reasonable, whether it makes sense.
    And they go, you know, so they are in work right now trying 
to help us determine an independent cost assessment.
    Mr. McNerney. So was what you submitted to OMB sufficient 
in terms of information for them to make an assessment of the 
cost?
    Mr. Bolden. I would like to think so.
    Mr. McNerney. And have they----
    Mr. Bolden. You would to ask----
    Mr. McNerney. --given you an estimate of when they will 
give you their numbers?
    Mr. Bolden. Well, it is not, Congressman, it is not that--
it is not just like that. We are working back and forth just as 
we work with the Committees, and we work with your staffs. We 
are actually coming up and briefing the staffs every time. 
Every time I make a preliminary decision, a technical decision, 
I generally try to have somebody come up here and sit with the 
staffs and tell them, you know, here is what we are doing or 
where we are going. I can't give you details because, as I 
said, every decision has three pieces to it; the policy, the 
budget, and the technical part.
    Mr. McNerney. So you don't and can't really give us an 
estimate of when OMB's numbers will be available?
    Mr. Bolden. That was what I said in my testimony. As much 
as I would love to say I am going to do that by the end of this 
month or the end of next month, I am not comfortable making 
that commitment to you right now because I don't have the 
results of the independent cost assessment that I asked for.
    Mr. McNerney. Thank you. I am going to change directions a 
little bit.
    Some folks criticize the SLS Program as a rocket to 
nowhere. Could you give us a roadmap of what we might 
accomplish with that hardware when it is available that would 
be noteworthy and make us proud?
    Mr. Bolden. Early in the program even before we have a 
capability of putting humans on it, we are hopeful, and that is 
the 2017 timeframe that I mentioned before, we would like to 
use that to boost an early version of the MPCV into space and 
get it to speeds faster than it would be going when it came 
back from the International Space Station, for example, so that 
we can do the same thing that I required Elon Musk and SpaceX 
to do back last December, you know. Put his rocket, put his 
capsule into orbit, have it orbit Earth a few times, come back, 
and survive. That is what I required him to do before I would 
go any farther, and he did that.
    I am now requiring me to put my MPCV, not into orbit, but 
put it somewhere, whether it goes around the moon and comes 
back, but I need it to accelerate, I need to accelerate it to a 
velocity that is equivalent of what it would be going when it 
comes back from the moon, from an asteroid, from Mars and be 
able to survive reentry and safe splashdown.
    Mr. McNerney. Well, those are good scientific goals, but 
they are not something that is going to sparked the 
imagination.
    Mr. Bolden. Yes, they do, sir.
    Mr. McNerney. Well, I hope you are right.
    Mr. Bolden. They spark the imagination of a young kid that 
wants to be an aeronautical engineer and figure out, you know, 
hypersonic--who wants to be involved in hypersonic research to 
determine whether a vehicle can survive reentry from speeds in 
excess of 17,500 miles an hour. If a kid is interested in that, 
that is pretty exciting.
    Mr. McNerney. What fraction of the population?
    But, you know, there is always a certain tension between, 
as Mr. Rohrabacher explored there a minute ago, between manned 
and unmanned space programs, and I think you are probably 
biased in that from your experience.
    Could you give us a little bit of, from your perspective, 
of what the advantage of human space exploration and 
expenditures are?
    Mr. Bolden. Congressman, I wouldn't say I am biased. I 
would say I am informed, and my--what I have learned in my time 
is that, for example, when we went to the moon, the astronauts 
had been highly trained in geology. They knew exactly what 
rocks to look for. However, some of the more interesting rocks 
that they brought back were not ones they were sent to get 
because a robot, while it has capability of doing anything we 
tell it to do, and we can train them to do pretty good stuff, a 
robot does not have intellect yet. A robot can't look around 
and see a piece of rock and say, boy, that is really 
interesting. They didn't tell me to bring this back, but I 
think I am going to take it anyway.
    We have to have robotic precursors. You know, I am going to 
launch the Mars Science Laboratory to Mars in November. That is 
going to do an incredible amount of work. We are doing things 
with our international partners that are going to go ahead of 
humans. It will be some time before we are capable of putting 
humans on--in any of these places that I am sending precursors 
right now. I would not send a human to Vesta, for example, even 
if I could. That is why DAWN is going there in less than a 
week.
    Mr. McNerney. I think I have expired here.
    Chairman Hall. The gentleman yield back.
    Mr. McNerney. I yield.
    Chairman Hall. All right. The Chair at this time recognizes 
the Chairman of our Space and Aeronautics Subcommittee, Mr. 
Palazzo, from Mississippi, for five minutes.
    Mr. Palazzo. Thank you, Mr. Chairman. Thank you for your 
leadership. I also share your sentiments and concerns on SLS, 
the delays, but it was encouraging to see the American people 
focus on the final launch of Atlantis. It demonstrated that our 
Nation does love our space program, they love the American 
exceptionalism that it brings. I do think that the--a lot of 
the American people were left with a lot of questions, and that 
is what, where, when, and how, and hopefully with this 
Committee and others and along with NASA and the rest of 
Congress will be able to help find those answers with the 
Administrator.
    Sir, you said many times that we need to test before we 
launch. What then is the agency's fiscal year 2012 test 
infrastructure plan?
    Mr. Bolden. In fiscal year 2012, right now we will continue 
a lot of engine testing, both on commercial rocket engines as 
well as the engines that we are developing. As a part of my 
proposal on a heavy-lift system, America does not have the 
expertise that we once had in what is called LOX rocket fuel or 
LOX-RP propulsion systems.
    So I have asked that we try to find money to begin 
development of a LOX-RP system. There are a lot of people that 
would love to see us use LOX-RP instead of LOX hydrogen. We 
don't have that capability anymore, and when we talk about 
stepping back for awhile and waiting for things to catch up, 
the reason we don't have the expertise is because when we got 
ready to build Shuttle, the Nation made a critical decision, 
and it decided it was going to go with LOX hydrogen as its 
focus, and we put LOX-RP aside. Russians do it very well, 
because they chose that system.
    So those are some of the things I hope to do.
    Mr. Palazzo. Can you just elaborate on why it is important 
to test before you launch?
    Mr. Bolden. Because you don't want to have something 
happen--it is sort of the way people put it. I would much 
rather be on the ground wishing I were in the air than in the 
air wishing I were on the ground. When I test on the ground, as 
we did with the AJ-26, we have had incredible success testing 
the AJ-26 for aero jet and orbital. We had a mishap with the 
AJ-26 engine. I would much rather have that occur and find out 
that there is something wrong than have it occur on the test--
on the launch platform at Wallops where the Nation has a 
significant investment in the infrastructure there.
    You know, so it is really important that we test things to 
see if we can wring out all the potential problems before we 
put it on a vehicle or try to put it in space.
    Mr. Palazzo. I have a question regarding the fiscal year 
'11, operating plan that was recently sent to Congress. The 
three-page spreadsheet noted as enclosure one indicates that 
the Multi-Purpose Crew Vehicle and the Space Launch System are 
due to receive amounts that are quite close to amounts 
stipulated in the continuing resolution, but details provided 
in enclosure two suggests that resources will be moved out of 
the Space Launch System line to other projects and activities.
    It is unclear to me even being a CPA exactly where and how 
much money is actually moving from SLS to support activities 
and other accounts. So for the record I request that NASA 
provide a detailed accounting of exactly how much money will be 
expended on development of SLS hardware, how many money is 
being moved to other accounts, the distribution of funding by 
center, the names of those accounts and for what purpose, and 
how much money is planned to be rolled into fiscal year 2012.
    Would you please provide this information?
    Mr. Bolden. Sir, I will take that for the record and 
provide it. As a precursor, however, what you are talking about 
is ground systems for SLS, and unlike Constellation where we 
had separate programs, in the SLS the ground systems are rolled 
into the program, so the cost is in SLS, not any separate 
program the way it was with Constellation.
    Mr. Palazzo. But you will provide that?
    Mr. Bolden. But we will provide the information that you 
requested.
    Mr. Palazzo. All right, because, you know, of course, I 
make that request, Mr. Administrator, just because, you know, 
we have to capture America's imagination, and we also need to 
ensure the public support and Congressional support, and we 
need to be able to back that up, and it must be earned.
    And I do have a little bit of time left. I would just like 
to--why an asteroid?
    Mr. Bolden. Well, why an asteroid? Asteroids tell us a lot 
about Earth, tell us about our own Earth, but the most 
important reason an asteroid is because one of these days, I 
will go back to what my friend, Mr. Rohrabacher, talks about, 
and we do need to be aware of the fact that one of these days 
one of these rocks that is orbiting the sun that we don't know 
a lot about is going to come perilously close to Earth, and one 
of these days it may actually hit Earth. And you all laugh when 
I tell you about it, but I don't want any of us to be 
dinosaurs, because I think we all know that if an asteroid 
makes it through our atmosphere of any significant size and 
impacts Earth, then it is going to be a dark day, and it could 
spell the end of civilization as we know it in the greatest, to 
the greatest extent.
    So when people talk about near-Earth objects and needing to 
understand what they are and what they can do, they are not 
crazy. They are people who just have a concern about the 
planet, as do I. In the National Space Policy one of my charges 
with the Secretary of Defense is to determine how we protect 
the planet against near-Earth objects, how we protect the 
planet against things.
    We live in a big universe, and some people live under the 
big sky theory or the big space theory that there is a lot of 
stuff out there but none of it will ever hit us. You have heard 
more in the last two weeks about near misses on the 
International Space Station than you have probably heard in 
your life, and that is just because people are becoming aware 
as we wind down the Space Shuttle Program, you know, that there 
are threats to the International Space Station, there are 
threats to anything we put in orbit because there is a lot of 
stuff out there.
    Mr. Palazzo. Well, thank you, and I yield back what time I 
don't have left.
    Chairman Hall. The gentleman yields back his time.
    For your information, 10 or 15 years ago we had a hearing 
on asteroids, and we found out for the first time that sometime 
in the '80s, mid '80s, an asteroid just missed Earth by about 
15 minutes, and no one knew it until it was here and gone. Go 
back and read that, and you will get some information on it.
    Thank you. At this time I think I want to recognize Mrs. 
Edwards. Yeah. I am going to. For five minutes.
    Ms. Edwards. Thank you, Mr. Chairman. I am not really sure 
what to make of that. I will say thank you, Administrator 
Bolden, and I just want to share with you. I was, over the 4th 
of July holiday I was out at Assateague, just camped out under 
the stars with five year old, ten year old, you know, six year 
olds, and we were looking up at the sky, and we were looking at 
the constellations, and we were just chatting, this group of 
young people who were so excited to be able to see out there in 
all of its wonder. And one of the little boys said, I want to 
go out there. That is what I want to do. That is who I want to 
be, and without any prompting at all, and it made me think as 
we then approached the last launch of the Shuttle Program, that 
there is so much more to do.
    And I know that you share that passion, and I do, too, and 
so when you say to this Committee that we are not abandoning 
our human spaceflight program, I want that to be true to those 
young people who were looking up at the stars, and not just 
because of the sheer joy of being out in space, but because our 
space exploration program tells us something about ourselves, 
it helps us to see ourselves and our relative place in this 
universe in a very different kind of way.
    And so I am concerned, and I think the timeliness of this 
hearing is really appropriate, in another part of the Capitol, 
the House Appropriations Committee right now I think is 
considering the 2012 appropriations budget for NASA. So it is 
appropriate that we are talking about this program and the 
fiscal responsibilities that we share for it, but at the same 
time that same Committee is looking at the elimination of the 
James Webb Space Telescope, and that is the next area of 
exploration for us that like the Hubble will tell us so much 
about our universe.
    And so on the one hand we have some who argue for the 
continuation of human spaceflight, but on the other hand, 
others say, well, we should invest more in things that are not 
part of the human spaceflight program but that are science, and 
we can't have it every way. I think that we--I happen to be one 
of those who believe that we need multiple legs of a stool to 
investigate our universe.
    So I understand that you approved the decision on the SLS 
design and you are basically ready to go and your plan was 
delivered to OMB. Can you tell me which engineers, scientists, 
aerospace people over at OMB are holding up their decision to 
get it over here and over to you so that you can begin work?
    Mr. Bolden. Congresswoman, I wouldn't say anybody is 
holding up a decision. I would say they are evaluating just as 
we always do in this deliberative process, and there are 
engineers at OMB, by the way. They are pretty smart people. I 
hate to say that, but there are.
    Ms. Edwards. I guess my point, though, is that there was a 
promise that we would have, you know, something that was a 
workable plan that you could move forward on and so that there 
was some certainty and stability both within the agency and in 
the private sector. We were told that would be the spring, and 
then it was later in the spring, and then it was closer to the 
launch of the Atlantis, and now we are hearing perhaps, I don't 
know, some time this summer.
    And we are months and months away from the report of the 
Augustine Committee, where we knew that it was time to 
construct or some thought a different direction. There have 
been multiple hearings here on Capitol Hill. We have looked at 
an authorization.
    I mean, when are we go going to be ready to go?
    Mr. Bolden. Congresswoman, I hope I can bring you something 
with all deliberate speed, but with all deliberate speed in 
this town sometimes is not as fast as we would like. I would 
say if you compare the delivery of the decision, the ultimate 
decision on MPCV, that was relatively fast in the grand scheme 
of the way that we generally operate with major programs like 
that, and I think while everyone is impatient and thinks we are 
not moving on SLS, we have made incredible progress. You know, 
we are almost there. We are getting there, but in the course of 
starting this effort to today, our budget has, I think as 
everybody in this Committee recognizes, it has constantly 
deteriorated. When we started this, the President's 2011 
budget, I would have been at $20 billion next year. We are not 
going to be there, and so we have had to go back, and I have 
had to de-scope, I have had to put--I put a ceiling on my 
technical team that put them under a lot of pressure. There are 
some of them sitting in this room right now who wish that 
Congressman Wu's request that somebody could find me all the 
money in the world because they are really working hard to try 
to find a way to live within our means, to live within the 2012 
proposed budget of the President, which has already been, if 
you look at the House proposal I got to go back again to the 
drawing board and figure out what to do.
    So we are working with all deliberate speed, but when 
things keep changing, then we have to go back and make 
adjustments. Otherwise I can't bring you an affordable, 
sustainable, realistic program.
    Ms. Edwards. Thank you, Mr. Chairman, and I hope we can 
bring the Administrator back because five minutes is just not 
long enough.
    Mr. Bolden. Congresswoman----
    Ms. Edwards. Thank you, Mr. Chairman. I think I have to 
yield.
    Mr. Bolden. Oh. Okay. I thought you were going to let me 
talk about James Webb. Okay.
    Chairman Hall. The gentlelady finally yields back. Good 
questions, though, and we always appreciate you. You are a good 
Member.
    The Chair at this time recognizes Mr. Cravaack for five 
minutes.
    Mr. Cravaack. Thank you, Mr. Chair.
    Major General, it is refreshing, sir, to have you here 
today and with your military perspective with coming in and 
saying it is not the President, it is me, the buck ends with 
me, and I just can't tell you how much I appreciate that, sir, 
and you are bringing that military perspective to the table.
    I also appreciate your need for good information in means 
good information out. So I understand your diligence on what 
you are trying to do to ensure that we have the right answers 
to the questions that we are bringing you up here today and 
making sure that you don't arbitrarily misguide us on what your 
vision is. So I commend you for that, sir, and I definitely 
appreciate that as well.
    One of the big things I think a lot of us are asking 
themselves in the back of the mind in these critical financial 
straits we are in is the return on the investment of going into 
space. And I still remember as a young kid watching the launch. 
I am a pilot as well. Wendy Lawrence is a classmate of mine 
from the Naval Academy, Brent Jett, both classmates. So I 
understand space, and I understand the need to go into space, 
but in this critical situation I am looking for that return on 
investment.
    And in your statement you mentioned that you had been 
working with other agencies, and they are interested in the SLS 
Program. I was wondering what is your relationship with the 
DOD, and is the DOD interested in the SLS Program and what it 
can bring to bear for them?
    Mr. Bolden. I had a discussion with a representative from 
DOD this morning to make sure I did not overstep or over-speak, 
and so while I would not say that they have definitive plans 
for SLS, what they are most impressed with and what they are 
encouraging us to press on and make a decision soon is because 
of its importance to the Nation's space industrial base.
    That is not trivial. You know, we are seeing our space 
industrial base erode, sometimes slowly, sometimes more 
rapidly, and that is important for me and for DOD and for the 
entire national security establishment because the people that 
are affected worse are the sub-tier subcontractors. The primes 
have lots of stuff to do, but it is the sub-tier people that we 
are concerned about. People that make instruments, for example, 
or make strain gages, or circuit breakers.
    Mr. Cravaack. So what do you think is the chief threat to 
our national security in space right now?
    Mr. Bolden. Our economy.
    Mr. Cravaack. Interesting.
    Mr. Bolden. I agree with my classmate Mike Mullen, the 
chairman. National--our economy is the biggest threat to the 
Nation right now. We have got to--one of the reasons that I 
struggle every day is because I know what I want to do, and I 
know what my agency can do, but I am realistic, and you know, 
although we represent less than half of a percent of the 
federal budget, we have got to take our share of cuts like 
everybody else. I hate to say that, but I want to do it 
smartly, and I want to be able to, you know, for people to feel 
proud of what we do.
    Mr. Cravaack. I appreciate that, sir, and I want to support 
you any way I can. Thirty-four years in the Corps, I would 
follow you anywhere, sir, but----
    Mr. Bolden. Thank you for your service.
    Mr. Cravaack. --you know, based on your assessment, how can 
Congress help you to overcome your challenges? I understand the 
economy, I understand the nature of making sure you get the 
right money, but how can we best help you in achieving these 
goals, because I do believe that in the national security 
interest that these goals need to be achieved.
    Mr. Bolden. It goes without saying that a firm, consistent 
budget is always helpful. The biggest thing, you know, I have--
I can't fix a problem that started eight years ago and 
persisted over eight years. I don't care how much you give me, 
you know. We in the Administration, this Congress, the American 
people, we all stood back and watched the Constellation Program 
just die a slow death, you know. I can't correct that. I would 
love to. President Obama can't correct that. But he set us on a 
course right now that I think is the right course. I support 
the course we are on, you know, or I would be gone. I could be 
with my grandkids. People don't like it when I say that, but, 
you know, there are other things I could do, but I love this. I 
love what I do, and I love my people.
    You know, we have got tough choices to make, and as a 
Nation, but what I tell people is as long as I am the NASA 
Administrator, we are not going to back down from human 
spaceflight. Now, I may not be able to do it the way I want to 
do it, but we will find a way to do it, and it will be safe and 
efficient and we will live within our means, but we cannot 
forsake science, and I spend pennies on aeronautics. So, you 
know, I am always torn because I--if you give me $100 million 
for aeronautics tomorrow, let me tell you, if you want to see 
return on investment, I can do that, but I don't even have time 
to talk about aeronautics because, you know, everybody is 
focused on SLS and stuff like that.
    Mr. Cravaack. Well, sir, thank you very much for your 
service and thank your grandkids for us because we are glad you 
are here, and I yield back, sir.
    Chairman Hall. The gentleman yields back his time.
    The Chair now recognizes Mrs. Wilson, the gentlelady from 
Florida, for five minutes.
    Ms. Wilson. Thank you, Mr. Chair. Welcome. Good morning. 
How are you?
    Mr. Bolden. Doing fine. Thank you.
    Ms. Wilson. It is good to see you.
    Mr. Bolden. Always good to be here.
    Ms. Wilson. I don't know if you remember but back in, it 
might have been '92 or '93, you were in Miami with a bunch of 
school kids at Miami Northwestern Senior High School.
    Mr. Bolden. My aunt was the librarian.
    Ms. Wilson. Yes.
    Mr. Bolden. Yes.
    Ms. Wilson. And----
    Mr. Bolden. I do remember.
    Ms. Wilson. I was a school board member sitting next to you 
and then the next day we were on the front page of the 
newspaper. So being a principal from Florida and because of the 
proximity, space travel is very relevant in the school 
districts of Florida, and our children have always been excited 
since they take multiple field trips all the time to Cape 
Kennedy.
    And I just wanted to find out, will there be any 
international collaboration with spaceflights, and how have you 
set that up, and what can we look forward to with the Russians 
and, you know, everyone else being involved in this, and how do 
we explain this to the kids in our schools?
    Mr. Bolden. International collaboration is critical to 
everything that we do, particularly when we talk about long-
term plans for exploration, for deep-space exploration. No 
nation, no single nation can explore deep space alone. So it is 
going to require international collaboration. All of our 
partners, our international partners in the International Space 
Station, there are five big agencies. The European Space Agency 
has 19 members, so I don't envy them. They are all struggling 
as we are financially right now, trying to decide how do we put 
collaborative programs together to do Mars exploration as 
precursors for human missions there. And we are all working to 
that end.
    We all collaborate on education because we all suffer the 
same problem. It is not--this is not an American calamity, the 
lack of interest in STEM-related courses on the part of school 
children. It is a world-wide issue.
    You know, when the Congressman talked about the thousands 
of people going into engineering in China, well, they got 
billions more people than we have, so it is not surprising that 
they have more going into engineering. They have a bigger pool 
from which to draw. It is not that more kids are interested in 
engineering. It is the numbers are much more massive, and they 
are doing things.
    So, yeah, we have got to work hard.
    Ms. Wilson. Thank you. Specifically, talk to me a little 
bit about Russia. You know, we hear Russia, we know the old 
Russia. What is the new Russia?
    Mr. Bolden. The new Russia is an incredibly valuable 
partner for us. They are a major partner on the International 
Space Station. I would say if you want to say how does Space 
Station exist today, it exists today because of our 
collaboration with the Russians. The first two elements of what 
is now the International Space Station were Russian because 
their components were ready before we were. When we lost 
Columbia on February 1, 2003, we didn't have a way to get 
American astronauts to the International Space Station, and we 
didn't want to de-person it, de-man it. The Russians were 
there, and with Soyuz they took our crews for almost three 
years while we went back and worked on making Shuttle 
available.
    And since that time they have been the primary provider of 
transportation for our crews to and from the International 
Space Station. So, you know, they are still a very good 
partner.
    But we also have incredible international partners in the 
Europeans and the Japanese and the Canadians. The Canadians 
have great expertise in robotics. You are going to see us do 
some time soon, we are going to do a refueling exercise, 
robotic refueling on the International Space Station. The thing 
that is going to do it is going to be Dexter, and Dexter is a 
Canadian-built robot.
    So, you know, international collaboration is critical.
    Ms. Wilson. Just one little follow up. We keep hearing 
about Russia and aggression from Russia, and I am just 
wondering has there been any thought placed as to what happens 
if this aggression becomes intolerable? How will that affect 
the Space Station? Is it so entwined that we need their support 
forever?
    Mr. Bolden. If I do my job and when I was in the military, 
if my counterparts there do their job, we won't have the 
problem that you perceive, but, you know, as long as we 
continue to work collaboratively with the Russians on the 
International Space Station, hopefully, you know, we will play 
an inadvertent diplomatic role.
    You know, the Russians during the end of the Cold War, I 
believe, came about partially because of the collaboration that 
we had with the Soviet Union in the Apollo-Soyuz test project. 
When I talk to my dear friend, Sergei Krikalev, with whom I 
flew on Shuttle, my last flight, Sergei, you know, went to 
space his first flight as a citizen of the Soviet Union from 
Stalingrad and came back to Earth as a citizen of Russia from 
St. Petersburg. So things change.
    Ms. Wilson. Thank you. I believe I am over.
    Thank you, Mr. Chair.
    Chairman Hall. Gentlelady is over.
    The Chair recognizes Mo Brooks, gentleman from Alabama, for 
five minutes. And Ms. Wilson, you were pretty well on time. 
Thank you for that.
    Mr. Brooks. Thank you, Mr. Chairman.
    I would like to focus on something that came out of the 
Commerce, Justice, and Science and Related Agencies 
Appropriations Subcommittee last week. Are you familiar with 
the vote that they had on either Wednesday or Thursday 
concerning the NASA budget?
    Mr. Bolden. I am painfully familiar.
    Mr. Brooks. And as I understand it, NASA would be cut 
roughly 1.6 billion, a little bit more than that; James Webb 
Space Telescope--if I understand correctly from media reports--
would be zeroed out. Overall, in your judgment, what would be 
the impact on NASA if the CJS Subcommittee proposal for NASA 
becomes governing law?
    Mr. Bolden. Congressman, I try to make a point of not 
dealing in conjecture. So I will say a couple of things. One is 
all my planning right now is based on the 2010 Authorization 
Act as supported by the 2011 Full Year Continuing Resolution 
looking to the President's 2012 budget proposal. If what you 
say happened, it goes without saying that my efforts to keep 
the gap between the end of the shuttle era and an American 
capability to take humans to orbit, if not close it, as I think 
we are starting to do, I would not be able to do that. The gap 
between the end of shuttle and another American capability to 
take humans to the International Space Station would increase 
and it is untold how much that would increase.
    If I had to sacrifice science, which I would not choose to 
do, you know, something like the James Webb Space Telescope 
that--when we started Hubble, dark energy didn't exist. At 
least we didn't know about it. When we launched Hubble, there 
was no such thing as extrasolar planets. So those kinds of 
discoveries would probably go lacking unless some other nation 
stepped forward and did it.
    Mr. Brooks. Are you familiar enough with the CJS proposal 
to be able to itemize for us the impact it has on specific NASA 
programs?
    Mr. Bolden. Yes, sir.
    Mr. Brooks. Other than James Webb we know would be zeroed 
out. But if you would, please, illuminate us.
    Mr. Bolden. So I will take it for the record and bring it 
back to you, but there--it is across the board.
    Mr. Brooks. For the fiscal year 2011 budget, Congress 
proposed $1.8 billion for the Space Launch Systems program. How 
much of a role is a Marshall Space Flight Center supposed to 
play in the SLS?
    Mr. Bolden. Sir, Marshall is critical. Marshall is where I 
house the program office for the SLS. The SLS program is at the 
Marshall Space Flight Center. They will lead the development of 
the heavy-lift launch vehicle and its ground system is in 
coordination with the Kennedy Space Center. They will integrate 
the vehicle or be a part of the integration of the SLS with the 
MPCV that heads the program office for the--at Johnson Space 
Center so----
    Mr. Brooks. Out of that 1.8 billion, how much does Marshall 
need in order to fulfill the mission as you envision with 
respect to SLS?
    Mr. Bolden. Robert Lightfoot was telling me he would tell 
me more. I--you know----
    Mr. Brooks. More than what?
    Mr. Bolden. More than any number I give him. But of the 1.8 
billion--the 1.8 billion, again, is for the entire SLS system, 
which includes ground systems, everything else, and I will have 
to get back to you. I will get to you for the record. While the 
SLS program office manages all that money, all of the money is 
not spent or obligated in and around, you know, Huntsville. It 
goes all over the country so--but I--we can get you a breakdown 
on what is going to be in Huntsville and what is going to be in 
Florida and what is going to be in Mississippi and other 
places.
    Mr. Brooks. Well, you shared with us the critical nature of 
the Marshall Space Flight Center and SLS program. Are you in a 
position today to tell me exactly how much of that 1.8 billion 
is scheduled to be spent on Marshall efforts?
    Mr. Bolden. Congressman, I am not in a position to tell you 
specifically how it is going to be broken out, but as the 
program office--with program management responsibility at 
Marshall, they will manage all of the money that is designated 
in the line item for the SLS. So if it is 1.8 billion, it is 
all managed out of the SLS program office at Marshall.
    Mr. Brooks. My staff has been receiving information that 
out of 1.8 billion it might be as little as 65 million that 
would, in fact, be spent at Marshall on the development of 
their part of the SLS system. Do you have any insight that you 
can share with us on whether that is right or wrong?
    Mr. Bolden. Congressman, I doubt that that is correct. I 
think that is a misunderstanding, but I will take it for the 
record and get back to you.
    Mr. Brooks. If you would, I would very much appreciate it.
    Thank you, Mr. Chairman.
    Chairman Hall. The gentleman's time has expired. The Chair 
recognizes the gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Well, thank you, Mr. Chairman, and thank you, 
Mr. Bolden, for being here today and for your lifetime of 
service to our country. It is really something that we all 
admire and we are grateful both to you and to your 
grandchildren for continuing to serve us.
    We are in a dicey time economically. We know that. We have 
a need to get our budgets in order. We know that as a country. 
We are having a disagreement on how to do that now, but we will 
do that. We will accommodate that. And I believe that there is 
every reason to believe we will continue to have a vigorous 
science program in this country because otherwise we won't even 
have a future economically. And in that science budget, I 
certainly include NASA.
    As you probably know, I come from Silicon Valley and there 
is a lot of innovation going on there all of the time. And so 
my question for you is how can, in a strategic sense, we design 
with the capacity to incorporate innovations that are already 
underway but are not yet ready for implementation? For example, 
there is an article in Aerospace America in February of this 
year that outlines a program that I have been following now for 
several years, which is a paraffin-based fuel that has been 
developed with the help of NASA Ames, Stanford University, and 
the Space Propulsion Group, and they are about to launch within 
the next couple of years with this new paraffin-based fuel. 
What the article indicates is that this fuel is going to lower 
the cost of a whole variety of systems. It is not going to be 
suitable just for replacement of boosters. They are going to be 
suitable for building in upper stages a wide variety of 
applications, and it is going to affect the lower cost. The 
design is different because of the burn rate and the capacity. 
I know that SpaceX is--I know they are not necessarily in 
Silicon Valley per se--is also doing some innovative things.
    So I guess the question is generic. How does the 
government, which tends to be--I don't mean this as criticism; 
it is just the nature of government--a little more stodgy I 
guess than the private sector, incorporate these innovations 
without holding up the design overall?
    Mr. Bolden. That makes plenty of sense and that is exactly 
what we are trying to do. We--I have a chief technologist, Dr. 
Bobby Braun, who is a Professor at Georgia Tech and, you know, 
still spends time there, but his task or his challenge from me 
is to make sure that we don't miss out on technological 
development, technological innovations, capabilities that are 
out there. Congressman Clarke, I reminded or I pointed out to 
him the last time I was here that he and the citizens of 
Detroit should be very proud of the fact that they produced 
Robonaut 2, R2. That is innovation in the field of robotics. It 
is now--R2 is now on the International Space Station and will 
live there for the life of the International Space Station. And 
that came from a collaboration between General Motors and the 
Johnson Space Center. We are always looking for innovative ways 
to do things.
    Ms. Lofgren. Well, specifically, are you taking a look at 
the paraffin-based fuel issue? I know there has been testing 
with the Air Force, as well as at NASA Ames as part of the 
planning for this?
    Mr. Bolden. We at NASA are not looking at alternative fuels 
because that is not what we do. What we look at and what I am 
certain Ames is probably doing--I am not familiar with the 
specific one that you mentioned--but what most of my research 
centers like Ames, Langley, Glenn do is they take emerging 
technologies and try to help industry develop systems that can 
use that. So when you talk about paraffin-based fuel----
    Ms. Lofgren. Well, SpaceX is going to use it on their next 
launch but----
    Mr. Bolden. I don't know. You know----
    Ms. Lofgren. Well, that--according to the article. But 
could I just do this----
    Mr. Bolden. I don't think so. If they are, you know, I----
    Ms. Lofgren. I am just reading what the report said in 
Aerospace America.
    Mr. Bolden. They use a LOX/RP engine and so I don't know.
    Ms. Lofgren. Well, could I ask you this? Would you look 
into this paraffin-based issue for me and get back to me on it?
    Mr. Bolden. Yes, ma'am. We will.
    Ms. Lofgren. I appreciate that very much.
    Mr. Bolden. We will. Thank you.
    Ms. Lofgren. I yield back, Mr. Chairman.
    Chairman Hall. The gentlelady yields back.
    The Chair recognizes the gentlelady from Florida, Ms. 
Adams, for five minutes.
    Mrs. Adams. Thank you, Mr. Chairman.
    Good morning, actually. It is still morning, Administrator 
Bolden. And I, too, want to thank you for your service to our 
country.
    You know, I want to reiterate something that you and I have 
just spoken about I am sure several times. I always say it 
every time and that is my problem isn't that we cancel 
constellation. I understand why that happened. My problem is 
that we didn't have a viable plan set forth when we did so. And 
in doing so, we lose our preeminence. We lose some ability if 
not a lot of ability. And I heard my colleague talk about the 
spinoffs. Well, I have the 2010 Spinoff book sitting on my desk 
in my office prominently displayed so that people can see the 
innovation, the creation, and the advancements, and the jobs 
created from this program. So when I sit and listen, I hear you 
say comments like ``the sooner we make a decision.'' You are 
right. The sooner we make a decision.
    You--we go back and forth about affordable, sustainable, 
and it has to make sense, but we still haven't made a decision 
so we don't know if it is affordable, sustainable, and it makes 
sense. The deliberate speed of this town, well, then why the 
deliberate speed to end without an Option B? I understand 
budget priorities. I understand all of this, but I also 
understand that this is the first time in decades--decades that 
the United States has no way to get American astronauts flying 
on American rockets built by American engineers and scientists 
into outer space. And it concerns me that NASA seems okay with 
that. That is where I am on this. I--you know, what is the 
intention of the Administration to assist our constituents with 
imminent layoffs as a reflection of the poor planning after the 
Constellation cancellation.
    You realize that we have over nine percent unemployment and 
we have more and more layoffs coming in Central Florida where I 
represent. And I heard you say that you are working with the 
communities and the State and I commend you for that.
    I would like to know what are you doing with them? Because 
I have been speaking with them also. I know of the two programs 
you referenced in that, but we still have a lot more people 
going to lose their jobs in an economy that is flailing and an 
unemployment rate that is 9., what, 2, three percent. Each day 
I hear of more unemployment. So I just need to know, when can 
we see the plan? When will we see that plan? When will NASA 
follow through with last year's authorization bill?
    Mr. Bolden. Congresswoman, we are carrying out the 
provisions of last year's authorization bill each day. And I 
tried to mention some of that in my remarks.
    A couple of things. You know, we are proceeding--if you 
look at the timelines that I have given you, a capability of 
putting humans in space aboard an American spacecraft by the 
2015, 2016 timeframe, if you look at where we were with 
Constellation at the time that the recommendation went to the 
President to terminate Constellation, we were looking at 2016, 
2017, maybe 2018. So somehow, we are actually ahead of when we 
would have been with Constellation in terms of getting beyond 
low Earth orbit. We at least now have a vision that would 
enable us to go not only back to the moon with a system that 
can get us down to the surface but to other places. We could 
not do that with Constellation.
    We have made significant changes. In Constellation, we are 
going to be relying on two vehicles to get crew--a separate 
vehicle for crew and a separate vehicle for cargo. Every time 
you introduce another system, that is more risk. And while, you 
know, some people say, well, it is safer for the crew, that was 
a step that we didn't necessarily need to take. And so when you 
look at the SLS, it is a system that carries crew and cargo. So 
we went from two vehicles required for a mission to one vehicle 
required.
    You know, as I said before, the decision that I am working 
under now was made more than eight years ago. It was a decision 
made by the prior administration.
    Mrs. Adams. Again, the SLS, we are still waiting for that 
information, and that is why we are having this hearing today.
    Mr. Bolden. Yes, Congresswoman. I understand that.
    Mrs. Adams. And so when can we truly expect--several people 
have asked that question and we kind of have a vague--can you 
give us a clear timeframe, something--I mean you say it is at 
OMB. Can we have that same information? Can the Committee have 
that information? When can we expect to see something?
    Mr. Bolden. Congresswoman, there are things that I can 
share with this Committee, and I would gladly do that to let 
you know where we are. And we will make arrangements to do 
that.
    Mrs. Adams. Could you do that, please?
    Mr. Bolden. But I would say, because some of it is 
proprietary to the companies involved, then it is not stuff 
that can be shared publicly. It should not be in the New York 
Times. But we will work to get that to the Committee.
    But you mentioned the fact that for the first time in 
decades we have no capability. I would have to remind you that 
between Apollo and Shuttle, you know, the last time we flew an 
Apollo spacecraft with humans on it was the mid- to late 1970s 
and we didn't fly Shuttle until '81. And that was with a plan. 
It took us longer than we thought. You know, we were down for 
two years after Columbia, down for two years after Shuttle. Had 
it not been for the Russians, we would have not had a 
capability to get humans in space. So we are looking at a 
redundant capability of putting humans in space. With Russians, 
we hope to have a couple of American companies that will be 
able to do that so that we are not caught again where, when we 
lose a vehicle, we don't have an American capability to get to 
space.
    So we have been here before, unfortunately. It is not the 
first time. But we are trying to get us to the point where we 
have the capability to do this.
    Mrs. Adams. Thank you.
    Mr. Bolden. Yes, ma'am.
    Mrs. Adams. I yield back.
    Chairman Hall. The gentlelady makes a good point and yields 
back.
    The Chair now recognizes Ms. Sewell from Alabama for five 
minutes.
    Ms. Sewell. Thank you, Mr. Chairman.
    Welcome. It is great to see you again, Mr. Administrator.
    My question is really about the timeline, the budget for 
SLS. The proposed budget for fiscal year 2012, as you 
indicated, is 1.8 billion. And as you know, the Marshall Space 
Center in Huntsville, Alabama, is likely to be very important 
in creating those components. And so my question is is it 
realistic--is the fiscal year 2012 amount, 1.8 billion, 
sufficient to fully fund SLS and the heavy-lift vehicle? And I 
know that the timeline has moved a bit, that it was 2016; it is 
now 2017. I really want you to talk a little bit about the 
achievability of the timeline.
    Mr. Bolden. Congresswoman, if I can go back and just make 
one adjustment. The time--the 2016 time was the time that you 
all told me you wanted to have a capability to do that. And at 
the time, I expressed some concern as to whether I could do 
that given the budget climate.
    Ms. Sewell. Um-hum.
    Mr. Bolden. The budget climate has deteriorated since we 
had that initial conversation. So 2017 for an initial 
capability to fly the vehicle, that is not human-rated. That--
we are still talking about, you know, late this decade, early 
'20s, before we have a human-rated vehicle, but we think we are 
going to be able to do that. Is the budget sufficient? When we 
made the recommendation on what should be in the budget to the 
President, I did not take the largest amount. I took the 
minimum that I thought we could do the program. I took the 
minimum that I thought we could do commercial crew and cargo, 
and that has caused quite a bit of consternation that I have 
discussed with this Committee and the Science Committee and the 
Appropriations Committee before that, you know, I would love to 
have more money for commercial crew to give me some assurance 
that we can facilitate their success. It is not there, so I--
what I did was I took what I figured was the minimum amount 
that would get me to a viable commercial capability, the 
minimum amount that I thought would get me to a viable space 
launch system and MPCV, and that is what you see in the 2012 
budget. So given that level of funding, we can do what we said 
we can do.
    Ms. Sewell. How will that affect Marshall's Space Center? 
How does the bottom line----
    Mr. Bolden. If everything goes as planned, Marshall will 
have some robust activity coming up. They are anxious to get 
back into building rockets and doing that kind of thing. They 
recently had a shell-buckling test----
    Ms. Sewell. Um-hum.
    Mr. Bolden. --that excited everybody there because it 
showed us that we overbilled, that--it showed our commercial 
partners that perhaps they overdesign and overbill because we 
found that, you know, things are stronger than we really think 
they are.
    Ms. Sewell. Right. I wanted to move a little bit to talking 
about components in the SLS. Some have argued that the 
development of new components is more expensive and time-
consuming than using existing components for SLS. With the 
tight NASA budget, it is cost-efficient to have a competition 
on the boosters' phase of the SLS as some individuals have 
recently suggested? And would this potential competition impact 
cost and the schedule?
    Mr. Bolden. One of the things that we have recommended that 
I can share in the design, if you will, of the new SLS, in an 
effort to try to speed things along and utilize as much as we 
can of existing technology while preserving the space 
industrial base for some time is a desire to utilize existing 
solid rocket boosters----
    Ms. Sewell. Right.
    Mr. Bolden. --until we can hold a competition, which I have 
directed--we try to do as soon as possible--where all comers 
can compete to include a LOX/RP capability. And I have said 
before I want to find the money to seed money for American 
manufacturers to at least take the risk at producing LOX/RP 
engines for a booster. So the eventual booster for the final 
SLS could be solids, could be liquids of two forms--LOX/
hydrogen, LOX/RP--or if there is paraffin-based, I mean it 
might be that. It is going to full and open competition if I 
can do what I would like to do.
    Ms. Sewell. Thank you very much. I yield back the balance 
of my time.
    Chairman Hall. The gentlelady yields back. The Chair 
recognizes Dr. Harris, the gentleman from Maryland.
    Mr. Harris. Thank you very much. And thank you very much, 
General Bolden, for all the service you have given to the 
country over a long and illustrious career now capped heading 
an agency that I think is going to have some very difficult 
decisions to make.
    First of all, I want to thank the Agency for everything 
they are doing at Wallops Island. It is a big boon to the 
economy of the First Congressional District of Maryland, which 
is only about 10 miles away or so from it.
    Let me just follow up with a question that Chairman Hall 
asked at the beginning and which I think I am getting the 
handle on. In the 2010 authorization, NASA was instructed to 
take the MPCV and use it as a backup vehicle to get to the 
International Space Station, but your testimony today is that 
that is really probably not going to be ready until around 
2020, is that correct, for man flight?
    Mr. Bolden. Congressman, it is--you know, the date that the 
MPCV is ready for a human flight will be sometime between 
probably 2017 and 2020.
    Mr. Harris. Well, 2017 is when the unmanned flight----
    Mr. Bolden. That is when we plan to fly an unmanned 
flight----
    Mr. Harris. Unmanned. So realistically, it is about 2020. 
So--and my understanding is the International Space Station is 
really only projected right now to be used through 2020. I mean 
it can go until 2028 or so, but only to 2020. So realistically, 
the MPCV really will never be a backup vehicle.
    Mr. Bolden. If we go beyond--there are a number of ifs----
    Mr. Harris. Yeah, if we go beyond----
    Mr. Bolden. --that I usually--well, I mean----
    Mr. Harris. We don't go beyond 2020. Realistically, it 
won't be a realistic backup.
    Mr. Bolden. Well, that is probably safe to say that.
    Mr. Harris. That is what I imagined. So the Russians now--
we kind of depend upon the Russians for all our manned space 
flights it looks like until a commercial alternative--and what 
is the--is it realistic that we will have a commercial 
alternative to delivering our astronauts to the space station 
for 2020?
    Mr. Bolden. It is realistic that we will have a capability 
by 2015.
    Mr. Harris. By 2015. So it looks like for a four-year 
window or so we are going to depend upon the Russians?
    Mr. Bolden. Yes, sir.
    Mr. Harris. And my understanding--I think I read it 
somewhere--they are kind of charging us a whole lot more than 
they used to on that----
    Mr. Bolden. No, sir. They are actually not.
    Mr. Harris. Right. Okay.
    Mr. Bolden. The latest contract that we signed with the 
Russians was essentially what we had signed before plus 
inflation. And yet, the thing that I try to keep people--to 
help people understand it is not just for a ride. It is for 
training because our crewmembers fly as crewmembers of the 
Soyuz Spacecraft. Generally, an American will be the flight 
engineer. We have never had an American fly as a commander of a 
Soyuz, but they do the flight engineer duties. They--one of the 
reasons we want to bring the capability of sending humans to 
space on an American-made vehicle is just to reduce the amount 
of time that I lose an astronaut to Russia for training.
    Mr. Harris. Sure.
    Mr. Bolden. You know, that is one of the things that is 
unattractive, if you will, to a young astronaut with a family 
is having to spend two years of their time back and forth to 
Russia. You know, that is--it is not attractive.
    Mr. Harris. Absolutely. No, thank you very much on that.
    But with, again, with regards to the MPCV, it looks like we 
are not going to be able to fulfill that, you know, the 
requirement of the 2010 law to use--actually have that 
available as a backup. We will depend upon the commercial 
rockets and, of course, the Russians as backups it looks like.
    Mr. Bolden. My hope is that we will have more than one 
commercial--more than one American-made capability to take 
humans to space by the 2015/2016 time frame.
    Mr. Harris. Okay.
    Mr. Bolden. Which would give us three alternatives.
    Mr. Harris. Well, thank you very much. And again, thank you 
for your service.
    I yield back.
    Mr. Bolden. Thank you. Thank you.
    Chairman Hall. The gentleman yields back.
    I say to the very patient Ms. Jackson Lee, if you can wait 
five more minutes, the Chair is going to recognize Mr. Clarke 
for five minutes.
    Mr. Clarke. Thank you, Mr. Chair.
    I would like to yield a minute of my time to the good 
gentleman from Oregon, Mr. Wu.
    Mr. Wu. I thank the gentleman from Michigan.
    Dr. Bolden, I just want to piggyback on two things, one is 
the paraffin engine as mentioned by Ms. Lofgren. I met with 
Brian Cantwell, the head of Aeronautics and Astronautics years 
ago and, you know, his claim is that they have solved a lot of 
the problems associated with paraffin technology. I brought 
this to the attention of your predecessor and he went right to 
those problems and, you know, I just encourage you to 
personally take some interest in this because what is momentum 
to one person is inertia to another.
    The other item is what you mentioned about people wanting 
to become millionaires. And I would hope--not NASA but somebody 
else--kind of take a look at how many people proportionately 
become millionaires when they want to become an investment 
banker and anybody else because just as it is kind of seductive 
to try to become the next Tiger Woods or a basketball player or 
whatever, we need to start drawing people into things like 
science and engineering just as NASA drew the best and 
brightest back in the '50s and '60s. And I would really like to 
see that again. And I just want to throw that out.
    And I thank you, Mr. Clarke. I appreciate it.
    Mr. Clarke. You are welcome.
    Administrator Bolden, I just wanted to follow up on a 
question that was posed by the gentlelady from Maryland, Ms. 
Edwards, regarding the James Webb Space Telescope. In light of 
some of the facts here, there could be huge job losses 
throughout 22 States, maybe 8,000 scientist jobs at risk here. 
Can you comment on the appropriateness of cancelling the 
support of the Webb Telescope?
    Mr. Bolden. Congressman, I have tried to explain what I 
think is the importance of James Webb in terms of opening new 
horizons far greater than we got from Hubble. I would only say 
that for about the same cost as Hubble in real year dollars, we 
will bring James Webb into operation. You know, it is--we have 
made significant changes in management in the program, changes 
at the Goddard Space Flight Center. Our contractor has done the 
same. Seventy-five percent of the hardware has already been 
delivered, and it is in the President's 2012 budget. So I guess 
the only other comment I could make was that it is a valuable 
commodity in NASA's stable of science projects.
    Mr. Clarke. I yield back.
    Chairman Hall. The gentleman yields back.
    I hate to tell Ms. Jackson Lee but I have to follow the 
rules.
    Chairman Smith, I recognize you for 5 quick minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Let me follow up, Mr. Bolden, on your last comments about 
the James Webb Space Telescope. Isn't the real problem here 
that OMB has not given your Agency flexibility when it comes to 
the budget? It sort of straight-lined the James Webb telescope 
rather than give you all the flexibility to maybe frontload it 
since 75 percent of the development has been done?
    Mr. Bolden. Congressman, we are still in process of 
developing our re-plan for James Webb, which would include a 
revision to what we think is needed in the budget. When we 
helped develop the 2012 budget, that is where we were marching 
with Webb at the time.
    Mr. Smith. But you support full funding?
    Mr. Bolden. I will support the funding that we will bring 
forward in our re-plan, which I have had an opportunity to see 
and which we have pre-briefed to our source--to our SRB, our 
outside review board.
    Mr. Smith. And would it help you if OMB gave you more 
flexibility?
    Mr. Bolden. Congressman, I always have a certain amount of 
flexibility. I go back to the decision-making process. You 
know, I have to go to them for consideration of issues 
pertaining to the budget that I don't have a full grasp of.
    Mr. Smith. I would never admit that, but we will hope you 
can do the best you can for the----
    Mr. Bolden. Yes, sir. I am doing--I will do the best I can.
    Mr. Smith. Okay.
    Mr. Bolden. I will.
    Mr. Smith. Second question is this: there have been two 
independent assessments, I understand, of the Agency's morale 
and trust in its organizational leadership. Can you give this 
Committee the results of those assessments that have been done?
    Mr. Bolden. I am not sure of which ones you speak, so I 
will take it for the record and get it back----
    Mr. Smith. Okay.
    Mr. Bolden. --but I can tell you when I travel around the 
Agency, most recently on the afternoon of the launch last 
Friday----
    Mr. Smith. Right.
    Mr. Bolden. --at a cookout at the Kennedy Space Center 
where I had an opportunity to circulate among the workforce----
    Mr. Smith. Yeah.
    Mr. Bolden. --many of whom will not be working several 
weeks from now, they were upbeat. Their attitude was very 
positive and they----
    Mr. Smith. Mr. Bolden, I am sure that is the case. That is 
also anecdotal.
    Mr. Bolden. Yeah.
    Mr. Smith. These assessments, one was done by the former 
senior engineer for the Hubble Space Telescope, Charlie 
Pellerin, and another by the management consulting firm 
McKinsey. Are you familiar with those assessments, those 
studies?
    Mr. Bolden. I contracted for the one for McKinsey and 
Charlie Pellerin used to--I mean still works for us, I think, 
so I will--as I said, I will take it for the record and bring 
you the results of those----
    Mr. Smith. You will give me some results for those 
assessments? Okay. Thank you, Mr. Bolden.
    Thank you, Mr. Chairman. I will yield back.
    Chairman Hall. All right. The Chair is really pleased to 
recognize the gentlelady from Houston, Texas, Mrs. Jackson Lee 
for 5 or 6 minutes.
    Ms. Jackson Lee. Mr. Chairman, let me thank you and the 
Ranking Member, Ms. Johnson, for your kindness in indulging me 
on a Committee that I had the privilege of serving on for 12 
years and still have a great affection and respect for the work 
that is done by this great Committee. And, of course, one of 
its jurisdictional responsibility is NASA.
    Before I dive into my questions, Mr. Administrator, let me 
thank you for your keen hospitality for a very emotional and 
moving experience on last Friday as Atlantis pushed past all 
doubts, all weather threats, and did what we expected her to 
do, which is to launch beautifully, and to the men and women 
that are now in space and utilizing the space station. We wish 
them well as they by-step space junk and do the great work that 
they have done over the years.
    I also would like to personally thank Mr. Glenn Posey. I 
have never seen a human being work as hard as he did and Karl 
Stehmer, who was excellent in his work. And these are the kinds 
of personnel that don't say no and recognize the importance of 
a Member who is able to see firsthand the work of NASA. And 
Members who were there, I know, appreciated their kindness.
    Let me follow the line of questioning of my good friend, 
Congressman Bartlett, as a strong advocate of human space 
exploration. I can't cite the tenure that he has but I am 
really concerned the next generation of physicists and 
astronauts of many training, whether it is medicine, but just 
those who aspire to believe that it is important for men and 
women to go into space.
    I am concerned about the messaging in what we have said. 
And you made a very valid point. We have been down 
conspicuously in our recent times with the Columbia and 
Challenger and either use another vehicle or we are not 
actually going into space. This should be characterized as 
that. My understanding is we are in this position because we 
did not fully fund Constellation when we had every opportunity 
to do so. And so now we are in a period where we are looking at 
the Space Launch System, but the message is not getting to the 
American people that we are still vibrant, we are still 
engaged. Tell me what NASA Johnson--Houston's role is now going 
to be with the Space Launch System and, if any, the MPCV. We 
are told that there are four contractors in Houston, and what 
is their role in filling the gap? Because we will expect 
thousands of layoffs in the Fall that are going to come about. 
They are mostly contractors. But what will be Houston's role as 
we go forward?
    And let me ask this other question. I have legislation. We 
are still in pain about the choice of the shuttle, and my 
legislation is a compromise. It indicates a loaner to be a 
partner to the other anchored iconic city or area that was 
leading in space that was Florida. There is no competition to 
Houston's role in the beginning of our space history. It is 
deserving--it would finish the historical story, but I think my 
effort--it doesn't have to even be legislation--of loaning--and 
I know there is some talk about the remains of--or the remains 
of some of the tragedies that occurred. I don't want to speak 
for or against that. I welcome that thought. But I am talking 
about an actual shuttle being loaned to the Houston Space 
Johnson area.
    If you can go forward on the first question of Houston's 
role now upcoming and then on the space shuttle loaner program.
    Mr. Bolden. Congresswoman, thank you very much.
    Ms. Jackson Lee. And thank you for your long and ongoing 
service.
    Mr. Bolden. Thank you. And I appreciate your specific 
mention of the employees, particularly, again Posey and Karl 
Stehmer who, unfortunately, is in the room when you said that. 
So I have no idea what that is going to cost me.
    Ms. Jackson Lee. I will put some funding in the budget for 
it.
    Mr. Bolden. They are two people who represent the 17,000 
plus people in the civil service portion of NASA and then the 
almost 40,000 contractors who are incredibly dedicated, who are 
motivated and come to work every day because they love what 
they do.
    When you ask about JSC, JSC will continue to play a 
critical role in everything that has to do with human space 
flight. They have the program office for the MPCV. They will be 
working cooperatively with the Kennedy Space Center that will 
have the program office for commercial crew. Astronauts will 
continue to train at the Johnson Space Center, train and live 
in Houston for the foreseeable future. As I mentioned, we just 
recently named additional crews for the International Space 
Station. They will train and work out of Houston. And the 
development of the MPCV, its test profile and everything else, 
its integration to the SLS will be headquartered down in----
    Ms. Jackson Lee. So will we see the ramping-up of employees 
that are now losing jobs?
    Mr. Bolden. Over time it is our hope that you will see 
everything bottom out and you will see a ramp-up in jobs back 
in all of our space communities. What I think you will also see 
over time is that as we are able to successfully facilitate the 
success of commercial space entities, you will see that those 
companies become represented in the Houston area, in the space 
coast area, in other areas around the country. You know, we 
signed an agreement down at the Kennedy Space Center last week 
with Mark Sirangelo, the CEO of Sierra Nevada to utilize the 
engineering expertise of the Kennedy Space Center. He had 
signed one with Johnson Space Center, with Ames, and with 
Langley. And that is what we are looking for is more 
cooperation between--among the commercial entities and our----
    Ms. Jackson Lee. We are looking for jobs and people with 
expertise----
    Mr. Bolden. Exactly.
    Ms. Jackson Lee. --so that we can----
    Mr. Bolden. Exactly.
    Ms. Jackson Lee. --continue to be leaders in science and 
technology.
    Mr. Bolden. There are three things that I tell people all 
the time and I promise this Committee. One is that the United 
States will maintain its leadership in exploration. The second 
one is that we will do everything in our power to facilitate 
the success of an American capability of taking humans to space 
on American-built rockets using American innovation. That is 
critical for us. And then the third thing is that we are going 
to do deep space exploration. Given the President's 2012 
budget, we have a timeline on which we are going to do that 
that I talked about in my comments. If we get less funding, we 
will still do that but the time may stretch out.
    Ms. Jackson Lee. A loaner vehicle?
    Mr. Bolden. I don't really have a comment on that, 
Congresswoman. I am waiting--you know, we have a plan in place 
and we intend to carry out that plan, but----
    Ms. Jackson Lee. Mr. Chairman, I will just end on this 
note. I am continuing to press for Houston's historical 
position in space to be rewarded and respected. And so I will 
continue to reach the President and anyone else to say that we 
need a shuttle, however it can be placed appropriately. And I 
thank you for letting me press this issue and I will press it 
again with you in the coming weeks.
    Thank you. I yield back.
    Chairman Hall. Thank you. And thank you for your patience. 
And thank you for coming back to the Committee that you served 
long years on.
    Ms. Johnson and I have agreed to give Mr. Rohrabacher 1 
minute additional.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Chairman Hall. Have 10 seconds that is gone.
    Mr. Rohrabacher. Okay. Let me just note that I am for human 
presence and enterprise and utilization and even human 
settlement in space. I am not so sure about human exploration 
versus robotic exploration.
    But the question I have for you that I wanted to make sure 
we got this down, the development costs of actually achieving a 
refueling capability, which would give us further capabilities 
in space, how does that match up with the cost--the new cost of 
developing a new huge rocket? Could we--is it about the same, 
is it less, or what is the----
    Mr. Bolden. Congressman, I will have to take that for the 
record because that is a study that I am certain is somewhere, 
you know, over in the headquarters building, but I am not aware 
of that. I have not asked for that information, but I will get 
it to you.
    Mr. Rohrabacher. I would appreciate that because it does go 
right to the heart of the matter of what strategy we will have, 
of whether you have to launch right from the Earth with 
everything or whether or not we should start developing the 
capabilities of refueling and then going on with further 
missions that wouldn't necessarily require a huge rocket that 
requires that much fuel.
    Mr. Bolden. I don't have the answer and I will get it for 
the record. But I will tell you in the ongoing evaluation that 
I asked in coming to the conclusion that I did on the SLS, we 
looked at multiple scenarios, one of which was, you know, 
flight-to-Earth orbit or what we call an Earth-orbit 
rendezvous. And it turned out that that was not as economical 
nor as reliable as the single flight, beyond-Earth orbit 
rendezvous, the way that we envision it now.
    Mr. Rohrabacher. Thank you very much.
    Mr. Bolden. But I will get you the information.
    Mr. Rohrabacher. Yes, sir.
    Chairman Hall. Gentleman has a promise. Gentleman's time is 
up.
    Mrs. Johnson has asked for a minute.
    Ms. Johnson. Thank you, Mr. Chairman.
    I simply want to thank the Administrator and also express 
my appreciation for this program and all it has done for the 
Nation and the world and for every possible person involved. 
And I don't see this, though I am troubled about the ending of 
a program, but rather the launching of new horizons and 
horizons that we will all see as much benefit as we have seen 
in the past of our shuttle system. And I want to thank you 
again for being here, for being persistent, and you deserve a 
break. Thank you.
    Mr. Bolden. Thank you, Congresswoman.
    Mr. Wu. And Mr. Chairman, I am not going to ask for a 
minute, but I want to thank you----
    Chairman Hall. Please don't.
    Mr. Wu. But I want to thank you anyway----
    Chairman Hall. No, you have a minute.
    Mr. Wu. No, no. I want to thank you anyway because I know 
you would have given it to me. Thank you.
    Chairman Hall. I thank Mr. Bolden for your very valuable 
testimony.
    Mr. Bolden. Congressman, may I have 30 seconds?
    Chairman Hall. I have a closing statement here that I have 
to make.
    Mr. Bolden. May I ask for 30 seconds before your closing 
statement?
    Chairman Hall. Sure. Yes, sir.
    Mr. Bolden. And, you know, we have--I have said a lot about 
who is responsible for what, and I am ultimately responsible to 
the President, but, you know, I have served in the Space Agency 
under five Presidents, starting with President Reagan, and I 
think people need to look at what our present President has 
done in terms of support for the space program. You know, I did 
not--I can't remember--and certainly this happened--a President 
who has taken the personal interest in the program the way that 
President Obama has. When he and his family came to the Cape 
after we did not launch STS-134 and spent quite a bit of time 
with the crew, the families, the workers there, I mean, and we 
had cancelled already that day, that spoke volumes. The 
commendatory message that he sent to our employees Friday 
afternoon after the launch of STS-135 and continued his promise 
and his challenge to us to send humans to an asteroid in Mars 
is more than I can remember from any of the total of five 
Presidents for whom I have worked. So I do like to give credit 
where credit is due.
    Chairman Hall. I thank you. I don't agree with you, but I 
do thank you.
    General Bolden, I would just implore you to get a final 
decision out as soon as you can, tomorrow, maybe, day after, 
whenever you can. But Congress takes a real high priority on 
closing the gap and having a backup system, and given all that 
has been achieved under the Constellation program, good or bad, 
mistakes were made and all that I know, but it shouldn't take a 
year's worth of deliberations to come up with an architecture 
that at some time, in some respects resemble components of 
Constellation or whatever follows Constellation. We have a 
workforce, we have an industrial base that is critical to our 
Nation's security and economic well being, and their future is 
being heavily impacted by NASA's indecision.
    And whoever wrote this for me also said I hope you will 
take that message back to the White House. I am not saying I 
hope you take that message back to the White House because you 
opened your statement saying the buck stopped with you. I don't 
really truly agree with that, but I do say to you because of 
your service and because of your outstanding--your heroic 
service to this country, the years you gave, you put your life 
in the hands of battling the enemy and people have admired you. 
Three times you were strapped to one of our spacecrafts, didn't 
know for sure--positive that you were going to get back--four 
times. People admire you and almost worship you and you have 
always been capable of friendship, and I think that is the 
reason that we have tried to be factual with our questions 
here, not mean or unkind, but trying to extract--and not 
asking, we are begging for information.
    As Mrs. Adams said, who represents an area that she is 
fearful, you know, and anxious and asking you when, when? And 
you said if you look at this or look at that or if you look at 
the Constellation, I just urge you to look at Congress and what 
Congress has asked you to do already----
    Mr. Bolden. Yes, sir.
    Chairman Hall. --and has been agreed by both sides. Help 
us. And thank you for your time.
    Mr. Bolden. Thank you, sir.
    Chairman Hall. And at this time, we do close out--Members 
of the Committee will have additional questions for you, Mr. 
Bolden. I will ask you to respond to them. And the record will 
remain open for two weeks for additional comments from Members. 
And we thank you.
    Mr. Bolden. Congressman, thank you very much.
    [Whereupon, at 12:22 p.m., the committee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
